<html>
<title> - MCCONNELL AND WODDER NOMINATIONS</title>
<body><pre>[Senate Hearing 112-133]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-133
 
                    MCCONNELL AND WODDER NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

   CONSIDER THE NOMINATIONS OF CHARLES MCCONNELL, TO BE AN ASSISTANT 
SECRETARY OF ENERGY (FOSSIL ENERGY) AND REBECCA WODDER, TO BE ASSISTANT 
               SECRETARY FOR FISH AND WILDLIFE AND PARKS

                               __________

                             JULY 28, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources




                  U.S. GOVERNMENT PRINTING OFFICE
70-995                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0364736c43607670776b666f732d606c6e2d">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           MIKE LEE, Utah
BERNARD SANDERS, Vermont             RAND PAUL, Kentucky
DEBBIE STABENOW, Michigan            DANIEL COATS, Indiana
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
JEANNE SHAHEEN, New Hampshire        JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                DEAN HELLER, Nevada
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
McConnell, Charles D., Nominee for Assistant Secretary for Fossil 
  Energy, Department of Energy...................................     8
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     1
Wodder, Rebecca, Nominee for Assistant Secretary for Fish and 
  Wildlife and Parks.............................................     4

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    29

                              Appendix II

Additional material submitted for the record.....................    51


                    MCCONNELL AND WODDER NOMINATIONS

                              ----------                              


                        THURSDAY, JULY 28, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. OK. Why don't we get started?
    The committee is meeting this morning to consider the 
nominations of Charles D. McConnell to be the Assistant 
Secretary of Energy for Fossil Energy and Rebecca Wodder to be 
the Assistant Secretary of Fish and Wildlife and Parks. Mr. 
McConnell has served as the Chief Operating Officer in the 
Office of Fossil Energy since March. Before coming to the 
Department of Energy, he spent 2 years as a Vice President at 
Battelle Energy Technology and 31 years before that at Praxair.
    Praxair, Inc., a Fortune 300 company that produces 
industrial gases.
    Ms. Wodder has served as President and Chief Executive 
Officer of American Rivers, one of the nation's leading 
conservation organizations, for the past 16 years. She also 
held senior posts at the Wilderness Society before joining 
American Rivers. She was a legislative assistant to our former 
colleague, Senator Gaylord Nelson, from 1978 to 1981.
    Both nominees bring a great deal of knowledge and 
experience to the offices to which the president has nominated 
them. I strongly support both nominations. I'm delighted to 
welcome both nominees to the committee this morning.
    Let me recognize Senator Murkowski for any statement she'd 
like to make.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. Good morning.
    Good morning to you, Mr. McConnell and Ms. Wodder. I 
appreciate both of you and your willingness to stand before 
this committee as you seek to serve your country. I am pleased 
to support Mr. McConnell's nomination to be Assistant Secretary 
of Energy.
    Mr. McConnell, I think your even and thoughtful approach 
makes you the type of nominee that both Republicans and 
Democrats can come together and support. Now, that said, I do 
have some important questions about DOE's Fossil Energy 
missions and how you intend to restore this office to an 
engaged and assertive entity. I have some concerns about both 
Alaska and national programs which, I think, are falling 
behind.
    Ms. Wodder, I must say that along with several of my 
Republican colleagues on this panel, there have been concerns 
that have been noted about your past statements and history at 
American Rivers and also with the Wilderness Society. While I 
can certainly understand that as the CEO of an organization 
that you do make statements on behalf of that organization, I 
do believe that you must be associated with and stand behind 
those comments.
    I am particularly concerned about what seemed to be 
foregone conclusions against natural gas and hydroelectric 
development and, more generally, economic growth. As I'm sure 
that you know, hydroelectric power is critically, critically 
important for my home State of Alaska. About 25 percent of our 
energy does come from hydro. In the southeastern part of the 
State where I was born and raised, it is everything. It is 
critical for us. Many communities throughout our State rely 
almost exclusively on hydro power where it provides a clean, 
renewable, alternative to diesel power generation.
    It would appear that throughout your career, Ms. Wodder, 
you have unequivocally advocated for the removal of dams. As 
Assistant Secretary for Fish, Wildlife, and Parks, you would 
play a crucial role in the permitting of many large 
hydroelectric projects throughout the country. That would be of 
concern to my fellow Alaskans, as our State has plans at the 
moment to construct the largest new dam built in the United 
States in decades. This is the 800 megawatt Susitna Dam 
Project. The Governor has just committed state funding for 
that. It's something that, as Alaskans, we look to, again, as 
an opportunity for an energy source.
    Mr. Chairman, I look forward to today's hearing and hearing 
again from both of the witnesses. But I think it is important 
that I express my concerns clearly about Ms. Wodder's 
nomination.
    Thank you.
    The Chairman. Thank you very much.
    Under our rules here in the committee that apply to all 
nominees, we require that they be sworn in connection with 
their testimony. Could each of you stand and raise your right 
hand, please?
    Do you solemnly swear that the testimony you're about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Ms. Wodder. I do.
    Mr. McConnell. I do.
    The Chairman. You may be seated. Thank you.
    Before you begin your statements, let me ask 3 questions 
that we address to each nominee that comes before this 
committee. The first question is: Will you be available to 
appear before this committee and other congressional committees 
to represent departmental positions and respond to issues of 
concern to the Congress?
    Ms. Wodder.
    Ms. Wodder. I will.
    Mr. McConnell.
    Mr. McConnell. I will.
    The Chairman. The second of our 3 questions is: Are you 
aware of any personal holdings, investments, or interests that 
could constitute a conflict of interest or create the 
appearance of such a conflict should you be confirmed and 
assume the office to which you've been nominated by the 
president?
    Ms. Wodder.
    Ms. Wodder. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Mr. McConnell.
    Mr. McConnell. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Thank you both for those statements. The 
third and final question we ask all nominees is: Are you 
involved or do you have any assets that are held in a blind 
trust?
    Ms. Wodder.
    Ms. Wodder. No.
    The Chairman. Mr. McConnell.
    Mr. McConnell. No, sir.
    The Chairman. Very well. At this point, we always invite 
nominees to introduce anyone they brought with them that they 
would like to introduce, family members or others.
    Ms. Wodder, did you have anyone with you you wanted to 
introduce?
    Ms. Wodder. Yes, Chairman Bingaman. I am joined by my 
husband, James Van Erden, and our daughter, Jayme. Another 
daughter, Jennifer, can't be here with us today because she is 
in Panama serving with the Peace Corps.
    The Chairman. We welcome them, the ones who are here. Thank 
you very much.
    Mr. McConnell, did you have anyone you wanted to introduce?
    Mr. McConnell. Yes. Right behind me is my wife of 32 years, 
Laura.
    The Chairman. OK. Thank you for being here today.
    At this point, why don't we call on each of you to make 
whatever statements you would like to make before we go to 
questions.
    Ms. Wodder, why don't you start, and then Mr. McConnell.
    [The prepared statement of Senator Landrieu follows:]

    Prepared Statement of Hon. Mary L. Landrieu, U.S. Senator From 
                               Louisiana

    I am pleased to support the nominations of both Mr. McConnell and 
Ms. Wodder. Both positions are important to each of their respective 
agencies and I hope we can get both of these individuals confirmed as 
quickly as possible so that they can begin to fulfill the duties of 
their new roles.
    I met with Mr. McConnell earlier this week and I was very impressed 
by him. While many Member of Congress believe that ``fossil fuels'' is 
a bad word here in Washington, these are the fuels--coal, oil and 
natural gas--that have powered this nation for decades and will 
continue to power this nation well into the future. It is important to 
have individuals in the Fossil Energy office who understand 
hydrocarbons, how to make them cleaner and more efficient, because we 
simply cannot just do away with these fuels as they supply 83 percent 
of the energy consumed in this country. I believe that Mr. McConnell is 
such a person who understands the importance of hydrocarbons and the 
vital role they play to this nation's economy. I think he will be a 
welcome addition as DOE's Assistant Secretary for Fossil Energy and I 
look forward to working with him in the future on projects that are 
important to Louisiana and to the nation at large.
    While I have heard some things that give me reservations about Ms. 
Wodder's position on certain matters, I am ultimately not in opposition 
to her nomination, but she has big shoes to fill. The former Assistant 
Secretary, Tom Strickland, understood the important role domestic 
energy plays in supplying this nation with jobs and energy security. He 
also understood that there is an important balance when promoting 
domestic energy and protecting the environment and that they are not 
mutually exclusive goals. I hope that Ms. Wodder will follow in Mr. 
Strickland's footsteps and will work to promote both objectives from 
her role as Assistant Secretary for Fish and Wildlife and Parks.
    Thank you.

 STATEMENT OF REBECCA WODDER, NOMINEE FOR ASSISTANT SECRETARY 
                FOR FISH AND WILDLIFE AND PARKS

    Ms. Wodder. Thank you, Chairman Bingaman, Senator 
Murkowski, and members of the committee. I'm deeply honored to 
appear before you today as President Obama's nominee for 
Assistant Secretary for Fish and Wildlife and Parks.
    I'd like to begin with a personal introduction. I am from a 
farming family, born and raised in Nebraska. My parents grew up 
during the Depression and survived grasshopper plagues and the 
Dust Bowl. Hardships had eased a bit by the time I was born, 
but I learned the value of hard work early on. I never took any 
good fortune for granted.
    I spent the weekends and summers of my youth on my 
grandparents' farms helping with chores and developing my love 
of barnyards, farm animals, and corn fields. My parents were 
both teachers, and my father taught at every level from a one-
room schoolhouse to the University of Nebraska. Public service 
and education were important values in my family, and I've 
spent most of my career working for public interest 
organizations.
    My lifelong commitment to conservation was awakened by an 
experience in the spring of 1970. As a senior in high school, 
my chemistry teacher tapped me to organize activities for the 
first Earth Day. Inspired and eager to play a role in cleaning 
up pollution, I went on to get undergraduate degrees in biology 
and environmental studies and master of science degrees in 
landscape architecture and water resources management.
    In graduate school, I led a study of the Lower St. Croix 
Wild and Scenic River. I spent a summer exploring the river, 
talking to power boaters and paddlers, anglers and campers 
about their experiences and how to minimize conflicts with 
other users. A lasting memory from that time is discovering a 
cache of sepia-toned, turn-of-the-century photographs of the 
St. Croix. On both sides of the river, as far as the eye could 
see, the land was completely cut over, and the river itself was 
choked with logs.
    It was that kind of devastation that inspired 19th century 
conservationists. What hit me, though, was the resilience of 
nature and how far the river corridor had come in restoring 
itself, thanks to those who had the foresight to protect it.
    When I became President and CEO of American Rivers, I saw 
an opportunity to connect people to nature through rivers. We 
explored, settled, and built America by river, and rivers are 
relevant to things that every American cares about, clean 
drinking water, health and safety, prosperity, and a high 
quality of life. Most important, rivers are resilient and with 
a little help, like the St. Croix, they can recover and be 
valuable assets, the centerpiece of a vibrant community.
    Among many river restoration projects that were undertaken 
during my tenure, one that stands out was a creative approach 
to improving conditions on the Penobscot River in Maine. A 
collaborative effort between a power company, State and Federal 
agencies, tribes, fishermen, and conservationists succeeded in 
maintaining all of the project's hydropower generating capacity 
while removing 2 dams and opening nearly 1,000 miles of 
historic river habitat for endangered Atlantic salmon.
    To be asked by President Obama and Secretary Salazar to 
oversee the conservation of this nation's wildlife, natural and 
cultural resources, and parks and refuges is the greatest honor 
of my long career. If confirmed, I will approach my 
responsibilities with deep humility and a commitment to work 
closely with members of this committee, the fine staff of the 
National Park Service and Fish and Wildlife Service, and with 
the many stakeholders who are affected by the services' 
programs.
    I will seek balanced approaches that take the needs of all 
stakeholders into account. I believe that the best way to 
achieve lasting conservation solutions is through a 
collaborative process. I look forward to promoting the many 
vehicles for partnership that have been developed to implement 
our nation's conservation laws.
    I will reach out proactively, especially to those whose 
livelihoods are at stake, and listen carefully to their 
concerns and ideas. I will aim for clear policy guidance based 
on the best science. I will commit to fully transparent 
decisionmaking.
    Most fundamentally, I believe that conservation is a widely 
held American value grounded in 2 quintessentially American 
principles: being a good steward and being a good neighbor. The 
Nebraska farmers I knew growing up worked hard to protect their 
soil and water year after year. When a neighbor needed help, 
everyone pitched in.
    In closing, I would be greatly honored to serve as the 
Assistant Secretary for Fish and Wildlife and Parks. I believe 
wholeheartedly in the missions of the National Park Service and 
the Fish and Wildlife service. If confirmed, I will do my best 
to provide the leadership, secure the resources, engage the 
stakeholders, and together with the dedicated men and women of 
these two services make measurable progress against the great 
conservation challenges of our time.
    Thank you.
    [The prepared statement of Ms. Wodder follows:]

 Prepared Statement of Rebecca Wodder, Nominee for Assistant Secretary 
                    for Fish And Wildlife and Parks

    Thank you, Chairman Bingaman, Senator Murkowski and Members of the 
Committee. I am deeply honored to be here with you today as President 
Obama's nominee for Assistant Secretary for Fish and Wildlife and 
Parks.
    I am joined here today by my husband, James Van Erden, and one of 
our two daughters, Jayme. Our younger daughter, Jennifer, cannot be 
here because she is teaching English in a remote village in Panama, as 
a Peace Corps volunteer. I am deeply grateful for their love and 
support.

                               BACKGROUND

    I would like to begin with a short, personal introduction that 
helps to explain my background and why I am here today. I'm from a 
Midwest farming family, born and raised in Nebraska. My parents grew up 
during the Depression and my mother's family lost their farm. They 
fought plagues of grasshoppers and the Dust Bowl, planting windbreaks 
and hauling water to keep the trees alive.
    Hardships had eased a bit by the time I was born in the early 50's, 
but I learned the value of hard work early on and never took any good 
fortune for granted. I spent the weekends and summers of my youth on my 
grandparents' farms, helping with chores and developing my love of 
barnyards, farm animals and endless fields of corn. Those windbreaks 
planted during the Dust Bowl were some of my favorite places to hide in 
the hot Nebraska summers.
    My father enlisted in the Army at the start of World War II. When 
he came back from the war, he finished his education on the GI Bill and 
became a teacher. He taught at every level from a one-room schoolhouse 
on the prairie to the University of Nebraska. My mother also taught 
school. Public service and education were very important values in my 
family, and I have spent most of my career working for public interest 
conservation organizations.
    My lifelong commitment to conservation was awakened by an 
experience in the spring of 1970. As a senior in high school, my 
chemistry teacher tapped me to organize activities for something new 
called Earth Day. Inspired and eager to play a role in cleaning up 
polluted rivers, I went on to get two undergraduate degrees from the 
University of Kansas, in Biology and Environmental Studies; and two 
Master of Science degrees from the University of Wisconsin-Madison, in 
Landscape Architecture and Water Resources Management.
    While studying at Wisconsin, I designed and led the first visitor 
study of the Lower St. Croix Scenic River. I spent an entire summer 
exploring the river, talking to power boaters and paddlers, anglers and 
campers about their recreational experiences and how to minimize 
conflicts with other users. A lasting memory from that time is 
discovering a cache of sepia-toned, turn-of-the-century photographs of 
the St. Croix. On both sides of the river, as far as the eye could see, 
the land was completely cutover, a moonscape, and the river itself was 
choked with logs. It was that kind of devastation that inspired 19th 
century conservationists. What hit me, though, was the resilience of 
nature and how far the river corridor had come in restoring itself, 
thanks to those who had the foresight to protect it.
    The next turning point came while working as a research assistant 
to a University of Wisconsin professor who was writing a book on the 
Wild and Scenic Rivers Act. I was sent to Washington, D.C. to interview 
Senator Gaylord Nelson for the book, and was offered a job as his 
Legislative Aide on Environment and Energy. This was a great place to 
start a conservation career in national public policy. My years as a 
staffer to Senator Nelson taught me many things, among them, that 
conservation is not a partisan issue, that conservationists should 
reach out and engage all Americans, and that we must commit to this 
effort for the long haul. He liked to point out that ``economy'' and 
``ecology'' have the same Greek root, ecos, which means ``house'' and 
that taking care of the planet is essential to both a strong economy 
and healthy ecosystems.
    After the 1980 elections, I went to work for The Wilderness 
Society. I directed the Alaska program for three years and spent time 
in many parts of the state, including a memorable three week canoe trip 
on the Kobuk River which runs along the south flank of the Brooks 
Range. My time in Alaska imprinted me with a love of wilderness and 
wildlife, and gave me a much fuller appreciation for the majesty of 
America's natural resources.
    When I was recruited to be President and CEO of American Rivers, in 
1995, I saw an opportunity to connect people to nature. Every community 
in America can trace its' story to a river. We explored, settled and 
built America by river. Rivers are relevant to things every American 
cares about--clean drinking water, health and safety, prosperity, and a 
high quality of life. Most important, rivers are resilient and with a 
little help, like the St. Croix, they can recover and be valuable 
assets, the centerpiece of a vibrant community. Sengalese poet and 
naturalist, Baba Dioum, says, ``In the end, we will protect only what 
we love.'' It seemed to me that rivers are a perfect medium for 
Americans to discover their love of the great outdoors.

             COLLABORATIVE AND CONSTRUCTIVE PROBLEM-SOLVING

    To be asked by President Obama and Secretary Salazar to oversee the 
conservation of this Nation's wildlife, natural and cultural resources, 
and parks and refuges is the greatest honor of my long career. If 
confirmed by the Senate to the position of Assistant Secretary for Fish 
and Wildlife and Parks, I will approach my responsibilities with deep 
humility and a commitment to work collaboratively with you, the fine 
staff of the National Park Service and the Fish and Wildlife Service, 
and with the many stakeholders who are affected by the Services' 
programs.
    The conservation challenges of the 21st century loom large, 
alongside many other key issues affecting the wellbeing of Americans. I 
believe solutions to our conservation challenges can also contribute to 
a sound economy and a healthy, safe and thriving future for our Nation. 
I have seen this in action in many places across America. In Harmony 
Junction, Pennsylvania, the removal of an old dam to restore fish and 
wildlife habitat also solved serious flooding problems and created a 
recreational resource that supports the community's economy and quality 
of life.
    In presenting my qualifications to you, I would like to highlight 
five key attributes that I bring to this assignment:
    First, I am an experienced chief executive officer, having 
successfully led American Rivers for 16 years of substantial growth and 
accomplishment.
    Second, I have 20 years of training and experience in developing 
and implementing strategic plans. When obstacles are many and resources 
few, having a good strategy is an absolute necessity.
    Third, I am a good listener and am open and interested in different 
points of view.
    Fourth, I am a collaborative, constructive and patient problem-
solver.
    I have led many effective public outreach and involvement efforts, 
including serving for several years as Conservation Chair for the 
National Council of the Lewis & Clark Bicentennial and partnering with 
federal, state, local, and tribal governments, as well as grassroots 
organizations and corporations to engage the public in this coast-to-
coast commemoration.
    Among many river restoration projects that were undertaken during 
my tenure, one that reflects these characteristics is a creative 
approach to improving conditions on the Penobscot River in Maine. A 
collaborative effort between a power company, tribal, state and federal 
governments, angler organizations and conservation groups succeeded in 
maintaining all of the hydropower generating capacity in the project 
area, while removing two dams to open nearly 1,000 miles of historic 
river habitat for endangered Atlantic salmon.
    The experience I would bring to this position includes three 
decades working with federal policies and programs related to natural 
resource management, fish and wildlife protection, and land and water 
conservation. As President of the nation's pre-eminent river 
conservation organization, I have had the privilege of working with 
hundreds of grassroots groups, local, state, federal and tribal 
governments, and many different sectors of business and industry, to 
develop solutions to complex problems with multiple stakeholders. 
During my tenure, American Rivers played a significant role in adding 
more than 100 rivers to National Wild and Scenic River System; 
restoring thousands of miles of rivers; demonstrating natural or 
nature-mimicking infrastructure solutions to water quality and supply 
problems in dozens of cities across America; and working with partners 
to find consensus solutions to conflicts between fish, water, and 
energy needs in the Pacific Northwest.
    Having spent 30 years in the public interest sector, I share with 
each of you a deep commitment to public service and, if confirmed, I 
will approach my responsibilities with humility and dedication. I will 
aim for balanced solutions that take the needs of all stakeholders into 
account. I believe that the best way to achieve lasting conservation 
solutions is through a collaborative process and I look forward to 
promoting the many vehicles for partnership that have been developed to 
implement the Endangered Species Act and other key laws and 
Congressional mandates. I will reach out proactively, especially to 
those whose livelihoods are at stake, and listen carefully to their 
concerns and ideas. I will ask my colleagues for robust analyses of all 
alternatives and aim for clear policy guidance based on the best 
science. And, I will commit to fully transparent decision-making.
    Most fundamentally, I believe that conservation is a widely-held 
American value, grounded in two quintessentially American principles--
being a good steward and being a good neighbor. The Nebraska farmers I 
knew growing up worked hard to protect their soil and water year after 
year, so that their sons and daughters could make a good living. And, 
when a neighbor needed help, everyone pitched in.
    These principles are part of President Obama's 21st century 
conservation initiative, America's Great Outdoors. Built on a strong 
bi-partisan foundation that goes back 100 years to the conservation 
legacy of President Theodore Roosevelt, the fact that more than 10,000 
Americans took time to participate in more than 50 listening sessions 
across the nation last summer suggests a strong base of interest to 
build on today. Many compelling goals were raised and discussed at 
these public events and they provide a unique opportunity for 
conservation progress that deeply interests me, should I be confirmed.
    For example, the idea of empowering communities to connect with 
America's great outdoors through their rivers and other waterways is a 
goal that is near and dear to my heart. I have seen this work first 
hand in places like Columbia, South Carolina, where the Congaree River 
Blueway connects an urban community to Congaree National Park and 
underserved youth to the outdoors.
    I am also eager to learn about and contribute to the idea of 
catalyzing large-scale land conservation partnership projects through 
economic incentives and technical assistance. Large landscapes offer 
opportunity to improve both the productivity and environmental 
performance of industries that provide food, energy, and material goods 
and the natural systems that provide clean air and water, productive 
soils, flood protection and natural beauty that sustains our spirit.

                               CONCLUSION

    In closing, I would be greatly honored to serve as the Assistant 
Secretary for Fish and Wildlife and Parks. I feel a strong connection 
to the American landscape and a deep responsibility to future 
generations of Americans. I believe wholeheartedly in the missions of 
the National Park Service and the Fish and Wildlife Service. Should I 
be confirmed by the Senate, I will do my best to provide the 
leadership, secure the resources, engage the stakeholders, and together 
with the dedicated men and women of these two Services, make measurable 
progress against the great conservation challenges of our time.

    The Chairman. Thank you very much.
    Mr. McConnell, why don't you go right ahead.

   STATEMENT OF CHARLES D. MCCONNELL, NOMINEE FOR ASSISTANT 
       SECRETARY FOR FOSSIL ENERGY, DEPARTMENT OF ENERGY

    Mr. McConnell. Thank you, Chairman Bingaman, Ranking Member 
Murkowski, distinguished members of the committee. It's a great 
honor and privilege for me to appear before you today as 
President Obama's nominee for Assistant Secretary for Fossil 
Energy.
    I'd also like to thank Secretary Chu and President Obama 
for their support and confidence in recommending and nominating 
me. I'd like to thank the committee as well for considering 
this nomination.
    I'm currently the Chief Operating Officer at the Office of 
Fossil Energy where I manage the daily operations of the 
office's programs and leadership, including the strategic 
planning, program direction, and evaluation work. I also 
oversee Fossil's administrative and budgetary operations.
    I was born and raised in a small Ohio River steel town in 
Steubenville, Ohio. My mother was a school teacher, and my 
father worked in a steel mill for 37 years. I've always had a 
curiosity and appreciation for industry and spent 2 summers 
working in a steel mill and a power plant while pursuing a 
degree in chemical engineering at Carnegie Mellon University. I 
later earned an MBA at Cleveland State University.
    My entire career has been focused on a broad range of 
industries and energy development. My first job after college 
was a plant engineer and later as a plant manager for Union 
Carbide at facilities in Ohio, Pittsburgh, and on the East 
Coast. Eventually, I was detailed to a joint venture between 
Union Carbide and, at the time, Texaco which focused on 
gasification and hydrocarbon conversion technologies.
    Union Carbide later became Praxair, and I spent nearly 32 
years with Praxair. I was fortunate to have held various 
positions in the United States as well as Asia, including a -
year stint in Singapore as Managing Director for Asia Markets. 
I ended my career at Praxair in Houston, Texas, as Global Vice 
President. In that position, I provided leadership on research 
and development initiatives in oxy-coal technologies, hydrogen, 
refining and chemicals, enhanced oil recovery, as well as 
carbon management science for carbon dioxide capture and 
sequestration.
    After retiring from Praxair in 2009, I served for 2 years 
as the Vice President of Carbon Management at Battelle Energy 
Technology in Columbus, Ohio. I there was responsible for 
business and technology management, including the leadership of 
the Midwest Region Carbon Sequestration Partnership.
    During my career in the private sector, I've held a number 
of advisory positions as well, including chairmanships of the 
Gasification Technologies Council, the Clean Coal Technology 
Foundation of Texas. I also served on the FutureGen Advisory 
Board for the State of Texas, the Gulf Coast Carbon Center, T&P 
Syngas Company, the Pittsburgh Coal Conference, and the Coal 
Utilization Research Council.
    I believe my technical and business background and 
knowledge of energy markets, as well as management and 
leadership skills, have positioned me with an experience and 
expertise necessary to lead the Office of Fossil Energy. 
Frankly, I consider it the opportunity of a lifetime. If I'm 
confirmed, I look forward to applying my full energy and 
commitment to addressing one of our nation's most critical 
challenges: to ensure the competitive, sustainable, and 
environmentally responsible use of our nation's vast fossil 
energy resources.
    Mr. Chairman, members of the committee, I want to thank you 
again for considering my nomination. I pledge that if I'm 
confirmed as the Assistant Secretary for Fossil, I'll work 
closely with you and other Members of Congress to pursue that 
common goal of securing America's energy future.
    Thank you. I look forward to any questions you may have.
    [The prepared statement of Mr. McConnell follows:]

   Prepared Statement of Charles D. McConnell, Nominee for Assistant 
           Secretary for Fossil Energy, Department of Energy

    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
members of the committee, it is a great honor and a privilege to appear 
before you today as President Obama's nominee for Assistant Secretary 
for Fossil Energy.
    I thank Secretary Chu and President Obama for their support and 
confidence in recommending and nominating me. I also thank the 
Committee for considering my nomination.
    I am currently the Chief Operating Officer in the Office of Fossil 
Energy, where I manage the daily operations of the Office's programs 
and leadership, including strategic planning, program direction, and 
evaluation. I also oversee Fossil Energy's administrative and budgetary 
operations.
    I was born and raised in the small steel town of Steubenville, 
Ohio. My mother was a school teacher and my father worked in a steel 
mill for 37 years. I have always had a curiosity and appreciation for 
industry and spent two summers working in a steel mill and a power 
plant while pursuing a degree in Chemical Engineering at Carnegie 
Mellon University. I later earned an MBA at Cleveland State University.
    My entire career has been focused on a broad range of industries 
and energy development. My first job after college was as a plant 
engineer and manager for Union Carbide at facilities in Ohio, 
Pittsburgh and on the East Coast. Eventually, I was detailed to a joint 
venture between Union Carbide and Texaco that focused on gasification 
and hydrocarbon conversion.
    Union Carbide later became Praxair, and I spent nearly 32 years 
there. I was fortunate to have held various positions in the U.S. and 
Asia, including a three-year stint in Singapore as Managing Director 
for Asian Markets. I ended my career at Praxair in Houston, Texas, as 
Global Vice President. In that position, I provided leadership on 
research and development initiatives in oxy-coal technologies, 
hydrogen, refining and chemicals, enhanced oil recovery, as well as, 
carbon management science for carbon dioxide capture and sequestration.
    After retiring from Praxair in 2009, I served for two years as Vice 
President of Carbon Management at Battelle Energy Technology in 
Columbus, Ohio, where I was responsible for business and technology 
management, including leadership of the Midwest Regional Carbon 
Sequestration Partnership.
    During my career in the private sector, I held a number of advisory 
positions, including chairmanships of the Gasification Technologies 
Council and the Clean Coal Technology Foundation of Texas. I also 
served on the FutureGen Advisory Board; the Gulf Coast Carbon Center; 
T&P Syngas Company; Pittsburgh Coal Conference; and the Coal 
Utilization Research Council.
    I believe my technical and business background and knowledge of 
energy markets, as well as my management and leadership skills, have 
provided me with the experience and expertise necessary to lead the 
Office of Fossil Energy. And, if I am confirmed, I look forward to 
applying my full energy and commitment to addressing one of our 
Nation's most critical challenges: to ensure the competitive, 
sustainable and environmentally responsible use of our Nation's vast 
fossil energy resources.
    Mr. Chairman, and members of the committee, I thank you again for 
considering my nomination and I pledge that, if confirmed as Assistant 
Secretary for Fossil Energy, I will work closely with you and others in 
the Congress as we pursue the common goal of securing America's energy 
future. Thank you, and I look forward to answering any questions you 
may have.

    The Chairman. Thank both of you for your excellent 
statements. Let me start with a few questions. We'll just do 5-
minute rounds of questions here.
    Mr. McConnell, let me ask you first about FutureGen. You 
have had quite a history with that. How would you approach the 
management of the revised FutureGen project that Fossil Energy 
is undertaking? I guess the more precise question is: Will you 
maintain its current strategic plan, or do you suggest maybe 
some alternative project design? What are your thoughts on 
that?
    Mr. McConnell. Mr. Chairman, I'm sure you're aware that the 
FutureGen configuration has been revised prior to the current 
facilities and the way it's designed. In terms of where it is 
today, it represents one of the 3 key technologies in the 
portfolio of Fossil Energy. In terms of the way the management 
is structured and in terms of the way the business arrangements 
are structured, currently, the people that are involved with 
the FutureGen operations include the FutureGen Advisory Team as 
well as the investors at the coal-fired power plant, both 
moving the project forward, challenging financial situations as 
they do move it forward. But, nonetheless, as we continue to 
milestone the performance as the project moves forward, we 
continue to be encouraged that it will be a success.
    The Chairman. Let me ask about carbon sequestration. This 
is an issue you've also had extensive involvement in. Recently, 
large electric providers, in particular, AEP, have announced 
their reluctance to pursue any further carbon capture and 
sequestration projects despite large government financing for 
these projects in the absence of some type of price on carbon 
or some other carbon mitigation legislation.
    I guess we've had some hearings here on the role of natural 
gas in the future in this country. Those hearings have also 
raised questions about the viability of CCS as a solution to 
the problems that many utilities are faced with.
    How do you see the impact of these changes on the regional 
CCS partnership program and the Clean Coal Power Initiative 
that you folks are pursuing there in the Fossil Energy Office?
    Mr. McConnell. I think you've rightly pointed out that in 
the absence of a carbon signal in the marketplace, in terms of 
a carbon tax, cap and trade, or whatever mechanism might be 
concerned, the economic viability of projects going forward 
becomes more and more uncertain in the utility industries when 
you are looking at simply capturing and storing carbon dioxide 
in a sequestration. However, I think it's encouraging--in the 
Fossil portfolio today, we have nine other projects that are 
very actively advancing the CCS roadmap as it was originally 
designed to develop carbon capture technologies, the geological 
understanding and science associated with sequestration.
    But those nine other projects also contain, I think, one of 
the most game-changing, perhaps, aspects of the whole program. 
What we're now beginning to talk very regularly and routinely 
about is carbon capture utilization and storage. The 
utilization is speaking in terms of taking that carbon dioxide 
and in the process of enhanced oil recovery being able to put 
it into geological formations to do 2 things: one, to be able 
to recover vast quantities of unrecoverable oil without the use 
of CO<INF>2</INF>; and in the process of recovering and 
enhancing that oil and getting the returns associated with it, 
it's also then permanently stored and sequestered--so really 
the balance, long-term, between environmental responsibility in 
getting sequestration and at the same time providing an 
economic incentive and an economic driver to move these 
projects forward so that they'll be continuing to provide value 
to the marketplace, to manufacturers, and to the industry.
    The Chairman. Thank you very much.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Let me continue with you, Mr. McConnell--a lot of 
discussion lately about the SPR, strategic petroleum reserve. 
If you are confirmed, you're going to have primary 
responsibility over the SPR. I wonder if you could just 
describe very briefly your view, your philosophy toward the SPR 
and, specifically, whether or not it is appropriate to use the 
SPR to manage high gasoline prices, as we saw just several 
weeks ago, or whether it should only be called upon in terms of 
actual supply disruption.
    As you speak to that, I'd also ask you to address the--I 
don't know how much substance there is to it, but there is 
speculation--there are rumors that there may be a second round 
of SPR that may come about. I've been a little bit concerned 
that we have criteria that is somewhat vague. When we have a 
release as we had several weeks back, it gives rise to a lot of 
political discussion that I'm not convinced is appropriate when 
we're talking about our strategic petroleum reserve.
    So I'd like you to address just kind of where you're coming 
from with the SPR, generally.
    Mr. McConnell. Thank you, Senator. Let me address the first 
part of your question first.
    Senator Murkowski. OK.
    Mr. McConnell. In terms of Fossil Energy's 
responsibilities, we have an ongoing and routine responsibility 
for the sustainable, safe, and efficient operations of the 
facilities, in terms of manning the facilities, conducting the 
daily operations, and making sure that everything at the SPR is 
functional and, if you will, in a ready-to-go operational State 
24/7.
    Also, as part of our responsibilities, we conducted the 
sale and the auction of the oil as we were instructed and drove 
it forward. In terms of preparing for it and in terms of the 
actual operations of it, that's really more of an operational 
discussion I just provided to you. But as the discussions were 
being considered amongst a number of offices within the 
Department of Energy, a lot of considerations went into it in 
terms of when the release should occur and how large it would 
be.
    A big part of it was the fact that it was an International 
Energy Agency action of which the United States was a part of. 
Of course, as you know, we had 30 million barrels that went up 
for sale. What was encouraging to us was that the 30 million 
barrels were actually oversubscribed in the sale by as much as 
100 percent, and we had almost 60 million barrels of offers 
that came in.
    I think it really largely speaks directly to the fact that 
there was a supply interruption from the Libyan situation that 
occurred. As a matter of fact, today, there's over 180 million 
barrels of supply that had gone out of the system, and IEA's 
determination was that it really was a liquidity event in terms 
of oil in the marketplace and availability. So the action was 
recommended by IEA to make up that supply gap.
    I think from our perspective, we saw the market response to 
that supply gap very strong at the time it was taken. In fact, 
in terms of pricing targets, we really received almost a 96 
percent price target in terms of the oil in the reserve. So it 
was not a bargain basement sale, if you will.
    Senator Murkowski. Does it make a difference if the--
because you keep referring to the fact that this was done in 
concert with the IEA. Does it make a difference if it's a 
unilateral action, as I understand this second contemplated SPR 
would be?
    Mr. McConnell. I can't speak to a second contemplated 
release, but I----
    Senator Murkowski. Speak to the unilateral action.
    Mr. McConnell. But I can speak to the fact that it was very 
important that it was an international response. That was a 
conversation that went on for quite some time, in terms of the 
United States' consistent approach to an action that was 
internationally driven.
    I'm not aware of any unilateral U.S. next step. As a matter 
of fact, one of the issues that's currently on the table is 
that the supplies continue to be tight, and there has been no 
recommendation by the IEA to actually buy back the oil and 
refill at this point in time.
    Senator Murkowski. It's my understanding that the IEA 
numbers that were out on Wednesday showed that our U.S. oil 
inventories rose 2.3 million barrels last week, which is above 
where they should be for this time of year, possibly a signal 
that the demand is tapering off, which, in my view, would make 
it even less compelling that there's a supply shortage that is 
out there.
    I've got some other questions that I will ask you, Mr. 
McConnell, but--and Ms. Wodder, but my time----
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    My thanks to you both. I very much enjoyed our visits.
    Let me start with you, Mr. McConnell. As we talked about in 
the office, the development of oil and natural gas from shale 
has the potential to be a real game changer in the U.S. energy 
market, and there is, of course, tremendous, you know, 
interest. As I discussed, you know, with you, one of the areas 
I'm looking at, particularly in terms of policy for the future, 
is trying to make sure that we don't have the gridlock that you 
so often see when a promising energy source is discussed, where 
people talk about production, then various concerns come up 
with respect to the environment, and everything sort of gets 
into a brawl that can hold everything up.
    When Secretary Salazar was here a couple of months ago, I 
proposed to him that morning to use the Interior Department's 
oil and gas leasing program, the one on public lands, as an 
effort to develop model practices, procedures, and regulations 
that could be used on private lands to give us a chance to get 
out in front of some of these controversies--it's already going 
to be a challenge because we're seeing plenty of them already--
and make sure we can strike a balance so that we can get the 
additional oil and gas. We can also be sensitive to 
environmental and science concerns. Secretary Salazar said he 
was interested in it.
    My question to you is: Would you be willing to be a point 
person between your office and Interior to speed this up and 
ensure that both agencies are working together and that, 
particularly, we look at using the public lands to try to make 
sure that we strike this responsible balance? Would you be 
willing to do that?
    Mr. McConnell. Senator, as we did discuss, President Obama 
looked to Secretary Chu and the Department of Energy to lead 
the blue ribbon panel for the recent development work in 
natural gas in terms of safety, sustainable hydrocarbon 
recovery technologies. That blue ribbon panel and advisory 
board is going to be reporting out very shortly here in the 
next week or so. I think the final report is scheduled for the 
17th of August. There'll be a series of recommendations that 
will go a long way toward speaking to shale gas, fracking 
technologies, issues around the natural gas area.
    From my perspective, as I told you, I'd be delighted to be 
in a position to ensure that that coordination and that point 
activity to make something happen happened, because we're 
absolutely committed to exactly what you just said, making it 
happen and having a focal point to do that.
    Senator Wyden. I appreciate it. As I indicated, what I like 
about this concept--this is a chance to do it in the real 
world. In other words, I've been putting myself to sleep nights 
trying to go through the various reports and the like. But the 
fact that the government, on public lands, could actually come 
up with a real world experience so that we could achieve the 
twin goals of extra production and best practices in the 
environmental area would really make sense to me. So I'm glad 
you're willing to take on that kind of effort.
    Now, with respect to you, Ms. Wodder, I've received several 
letters and comments expressing concern over positions you've 
taken as President and CEO of American Rivers and that those 
views, specifically in support of removing the Lower Snake 
River dams, would make you unable to support the 
administration's biological opinion for Columbia River salmon. 
Now, my understanding is that you plan to address these 
concerns head-on by recusing yourself from matters involving 
the Columbia-Snake River dams.
    Could you this morning confirm that that's the case and 
give us a little bit of an explanation on how you would be 
handling it?
    Ms. Wodder. Yes, Senator Wyden. If confirmed, I will abide 
by the terms of my ethics agreement, including the applicable 
ethics rules and the administration's ethics pledge, and I will 
regularly seek the assistance and guidance of the department's 
ethics office. I have consulted with the department's ethics 
office and understand that, as provided by the terms of my 
ethics agreement and the administration's ethics pledge, I will 
not participate for 2 years in any particular matters involving 
specific parties in which American Rivers is a party or 
represents a party.
    In addition, if confirmed, I will voluntarily recuse myself 
from participating in any Interior Department decisions 
regarding the Columbia-Snake River system for the full time 
that I am Assistant Secretary for Fish and Wildlife and Parks.
    Senator Wyden. Mr. Chairman, my time is up. I would just 
like to submit to Ms. Wodder for the record a couple of 
questions with respect to the park side of your mission. As you 
know from our visit, I care very much a about the Oregon Caves 
Monument and expanding the boundary. We want you to work 
constructively on that with the Forest Service. As we talked 
about, I was able to get in the FAA legislation an amendment 
that would allow the Park Service to reject an application to 
have these fly over tours over our Special Gem, Crater Lake. 
The Park Service under the amendment could reject an 
application without first having to complete an air tour 
management plan.
    I'm very interested in your using that authority, if you're 
confirmed. I'll pose that in writing. I was encouraged by the 
comments you gave in the office.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Murkowski, if you had additional questions, go 
right ahead.
    Senator Murkowski. Yes. Thank you, Mr. Chairman.
    Ms. Wodder, I want to follow up with a comment that you 
just made in response to Senator Wyden about recusing yourself 
from the matter as it related to the Lower Snake River. As I 
heard, you said that you would recuse yourself from any matter 
that American Rivers had been involved in in litigation during 
your tenure at that time. Is that correct?
    Ms. Wodder. As I understand the terms of the ethics 
agreement--and I have consulted with the department's ethics 
office--I will not participate for 2 years in any particular 
matters involving specific parties in which American Rivers is 
a party or represents a party. As I mentioned to Senator Wyden, 
I would voluntarily recuse myself from participating in 
Interior's decisions regarding the Columbia-Snake River system 
for the full time that I am Assistant Secretary for Fish and 
Wildlife----
    Senator Murkowski. Then let me ask this question, because 
it's my understanding that American Rivers is an intervener 
in--I want to make sure that I get this right--but an 
intervener in every FERC application that is pending regarding 
a hydro--current hydro projects that are under consideration. 
Would that mean that you would recuse yourself from any 
oversight or any involvement with any of these hydro projects 
that are pending before the FERC?
    Ms. Wodder. Senator Murkowski, I'm not an attorney, and so 
I will do my best to answer your question as fully as I can. I 
am not aware that American Rivers is an intervener in every 
FERC proceeding. American----
    Senator Murkowski. I'm told it's nearly every--and I don't 
know what ``nearly'' is. So I apologize for that vagueness. But 
it sounds like a lot.
    Ms. Wodder. To my knowledge, I don't know the numbers. So 
we'll go with your understanding for the time being. Again, my 
understanding is that the pledge that I take as a non-attorney 
is that I would be not participating or recused from 
participating in any particular matters involving specific 
parties in which American Rivers is a party or represents a 
party for that 2-year period.
    Senator Murkowski. I am told--and this is from a letter 
that we received from nearly 40 members of the House that had 
expressed some concern about your nomination. According to that 
letter, American Rivers has either sued or been a party to 150 
lawsuits against various parties, mostly the Federal 
Government, between 1988 and the year 2011. I understand that 
there's some discrepancy in that number. But it would appear to 
me that if you stick to the commitment which you have just 
repeated several times--and I appreciate that--but that it 
would preclude you from involvement with a considerable number 
of activities that would be before you ordinarily in your 
capacity as--were this nomination to move forward.
    I want to press a little bit more about the issue of 
hydroelectric and your specific positions on this. As I've 
indicated, this is particularly important to my State, where 24 
percent of our electricity is generated from hydro.
    Is it a blanket opposition to all hydro projects that you 
have? Do you oppose all new dams regardless of size or 
location? Do you oppose them even if the EIS will indicate that 
there's no impact to the fisheries? Give me your perspective on 
hydroelectric power generation.
    Ms. Wodder. I'd be glad to, Senator Murkowski. I believe 
hydropower generation can be a very important part of the 
overall mix of meeting this country's energy needs. In fact, my 
former organization, American Rivers, worked collaboratively 
with the National Hydropower Association on legislation that 
came before this committee to improve and increase the amount 
of hydropower generating capacity through various means, 
improving the turbines and the operating nature of the dams 
that already provide hydropower and adding turbines to dams 
that don't currently have that generating capacity, to the 
point that the amount of hydropower generating capacity in this 
country could be doubled.
    So I believe that hydropower can be a very important and 
green source of energy when it's properly sited, operated, and 
mitigated. I believe that's a direction which the country can 
and should head.
    Senator Murkowski. So you would agree with Secretary Chu 
that we have the potential to generate between 20,000 and 
60,000 megawatts of new electricity when we're talking about 
hydropower and our ability to electrify existing dams. You 
don't have concern with that. I'm going to press more in the 
next round here to understand exactly where your opposition to 
hydropower is, because it's been made clear previously that 
you've got some concerns with this, and I'm trying to ferret 
that out.
    The Chairman. Senator Lee.
    Senator Lee. Thank you both for joining us today. I'm sorry 
I couldn't be here for the first part of the hearing. I was 
detained in another committee where we had a roll call vote--
ran up here as soon as that was over. But thank you for being 
here, and I apologize in advance if any of my questions cover 
ground that is duplicative of anything that might have been 
covered already.
    I have a few questions for you, Ms. Wodder. It concerns me 
a little bit that you claim to be a strong supporter of a new 
economic model based on no economic growth and a huge fan of an 
organization that believes that economic growth in the United 
States is doing more harm than it is good. During the last 3 
years, we've seen what an economy based on little or no 
economic growth looks like, and it's not pretty.
    Are you still a strong supporter of a new economic model 
that's based on no economic growth?
    Ms. Wodder. Senator Lee, I believe that we owe a duty to 
future generations to provide a sustainable approach to 
economic growth in this country. As I said in my opening 
statement, I think that being good stewards is part of what 
defines Americans and really makes all of us as Americans 
conservationists. So I believe that there are smart ways to 
proceed with providing the economic growth that this country 
needs in concert with good environmental protection.
    Senator Lee. Sure, sure. But there is a difference, is 
there not, between no economic growth and sustainable policies 
and practices?
    Ms. Wodder. I believe that sustainable approaches to 
economic growth--I'm not saying anything in a negative way 
about economic growth. I'm just suggesting that we can approach 
it in a good, sustainable manner that will provide for the 
needs of current generations and not diminish the needs of 
future generations.
    Senator Lee. But you have described yourself as a huge fan 
of an organization that calls for no economic growth. Is that 
right? Is that still the case?
    Ms. Wodder. Senator, I believe you're referring to an 
interview that I gave a number of years ago in a--when I 
complimented another organization. I have some familiarity with 
that organization, but I can really speak to my own record and 
the organization that I have worked for. I'm not really 
prepared to support that particular organization or--one way or 
the other.
    Senator Lee. OK. So you've changed since the interview you 
gave years ago?
    Ms. Wodder. I believe my views have been consistent 
throughout my career that I--as I stated, I believe that we 
need to proceed with our economy in a way that supports the 
current needs of the population and in a way that doesn't harm 
the resources for future generations.
    Senator Lee. OK. In an interview--it may have been the same 
interview with E Magazine a few years ago--you were asked 
whether you were a vegetarian. You replied, ``I'm not a total 
vegetarian, but I make a point of eating low on the food chain 
as often as possible.'' In a 2007 interview, you stated, ``I 
eat almost no beef or pork because of the amount of resources 
consumed in producing food via cattle or pigs because I object 
to factory farms.''
    But, Ms. Wodder, what concerns me a little bit is that what 
you call factory farms, we in Utah call family farms. In Utah, 
these farms contribute more than $2 billion a year to our 
economy. We're a small State. We're a relatively poor State, 
and we need those family farms. Many of those farms and ranches 
are affected by BLM grazing policy. In fact, they're at the 
complete mercy of BLM grazing policy, and all of them could be 
affected by an endangered or threatened species habitat being 
declared anywhere close by.
    So while your purview wouldn't cover the BLM, generally, 
you would have a powerful voice impacting decisions of BLM if 
Endangered Species Act consultation is required. The ESA can 
place severe restrictions on Americans' control--their ability 
to control their own private property.
    In Iron County, for example, a corner of Utah's 
southwestern part of the State, Utah farmers and ranchers are 
restricted to what they can do on their land, because it's 
considered critical habitat to the questionably listed Utah 
prairie dog. So when a controversy like the Utah prairie dog 
comes before you, how are we to believe that these factory 
farms, as you describe them, or family farms, as we call them 
in Utah, will get a fair shake in the analysis under the 
Endangered Species Act?
    Ms. Wodder. Senator, I appreciate your question. I, myself, 
am from a farming background in Nebraska. My husband is from 
Utah. I appreciate the resources that you're talking about and 
the importance of our farming community across this country. I 
would commit to you that I understand the job of the Assistant 
Secretary, should I be confirmed, is to impartially and fairly 
administer the laws and directives of Congress. I commit to you 
that I would approach that in an open-minded way and come up 
with a fair and transparent approach to decisionmaking.
    Senator Lee. You wouldn't be biased based on your previous 
stated objections to factory farms or based on your previous 
stated objection to economic growth?
    Ms. Wodder. As I mentioned, Senator, I'm from a farming 
background myself, and I believe in the value of the farming 
community in this country. I think farmers are some of the best 
conservationists I know, and that's where my conservation 
background stems from.
    Senator Lee. Thank you. I see my time has expired.
    The Chairman. Senator Barrasso, I believe, is next.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Mr. McConnell, thanks so much for coming to the office and 
spending some time visiting yesterday. I enjoyed our 
discussion.
    I want to follow up a little bit on the strategic petroleum 
reserve that was tapped. We mentioned that there were 30 
million barrels released recently that was--there were other--2 
instances where, to me, were clear emergencies--Operation 
Desert Storm and Hurricane Katrina. The recent release was 
equal to the total amount of the other 2 combined. It was 30 
million last time. It was combined--of 31 million barrels.
    The law says that we should release for a severe energy 
supply interruption, severe energy supply interruption. The 
president blamed the situation on Libya. So if I could ask for 
a little bit of a conversation--because I know you were 
involved, not in the final decision, but in somewhat of the 
implementation--that if the department really did recommend to 
the president that the United States faced a, quote, ``severe 
energy supply interruption'' and how that was thought through.
    Mr. McConnell. As we discussed, Senator, it was very 
important as we analyzed the entire aspect of what was going on 
that the international response to this was coordinated. It was 
something that international countries supported and called 
upon for us to support. Really, the conversations we were 
having internally, especially in Fossil Energy, were focused 
primarily around making certain that we had the readiness of 
the operation, the inventories in a good position, being able 
to conduct the supply logistics, et cetera. But it was and 
always was part of the conversation that it be an 
internationally deemed action, not something that was 
unilateral from the United States.
    Senator Barrasso. I appreciated the frankness of the 
discussion yesterday and want to thank you for your willingness 
to serve and congratulate you on this nomination.
    Mr. McConnell. Thank you, sir.
    Senator Barrasso. Ms. Wodder, we had a chance to visit last 
week when you testified at the Environment and Public Works 
Committee. I just wanted to follow up a couple of concerns I 
have, because I remain concerned about your statements 
opposing--what I view as opposing American energy exploration. 
You've opposed oil and gas exploration. You've opposed coal 
mining. You've opposed hydropower.
    Based on your record, to me, there is no evidence that you 
could provide a reasonable perspective in this very important 
position, just based on your record up until now. On oil and 
natural gas exploration, you said, quote, ``Fracking has a 
nasty track record of creating a toxic chemical soup that 
pollutes ground water and streams, threatening public health 
and wildlife.'' You've also said, quote, ``Unless we stop the 
threat of rampant shale fracking, the drinking water for 17 
million people across the Northeast will be threatened by toxic 
pollution.''
    Hydraulic fracturing has been around for about 60 years. 
About a million wells have been fracked. To me, it's going to 
play a critical and crucial role in American oil and gas 
exploration. Even Lisa Jackson said that there was no proven 
cases of water contamination from hydraulic fracturing.
    So on coal mining, you said, quote, ``Mountaintop removal 
mining causes irreparable damage to the environment and 
communities.'' You know, coal mining, oil and gas production--
these are thousands of good-paying jobs in Wyoming. So I just 
wanted to give you a chance to kind of explain your positions 
and to--you know, those are positions that you took just 
because you were working for American Rivers and, you know, how 
you sit on these things like hydraulic fracturing, coal mining, 
because I think it's important for all of us to know exactly 
where you are and when you were a hired spokesman for an 
organization versus this new role that you've been nominated 
for.
    Ms. Wodder. Thank you, Senator Barrasso. As you point out, 
the job that I had as President and CEO of American Rivers was 
to be an advocate for the mission of that organization on 
behalf of the board and the members of the organization, the 
mission being healthy rivers and clean waters to support the 
communities, both human and natural, that depend on them.
    This position, should I be confirmed, is a very different 
one. The job is to implement the policies and positions of the 
administration as part of a team and also to impartially 
administer the laws and directives of Congress. I most 
certainly appreciate the difference and would be dedicated to 
fulfilling that responsibility.
    In responding to the particulars of your question, I've 
already mentioned that I believe that hydropower can be a very 
important part of the energy mix of this country, and I feel 
the same way with respect to natural gas. I think, as the 
president has said, the important thing is to proceed carefully 
so that at the time that we're developing energy resources we 
don't, in an unintended way, harm other critical resources like 
clean water.
    I think this country has been able to find a balance 
between energy production and environmental protection. In 
fact, I think the best examples are when both of those goals 
are enhanced and achieved at the same time. I mentioned the 
project, for example, of the Penobscot that I worked on when I 
was president of American Rivers, in which power generating 
capacity of a river was maintained at the same time that 1,000 
miles of habitat was opened up. So I believe there are creative 
approaches that can achieve both of the goals of enhanced 
energy and environmental protection.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman. My time has expired.
    The Chairman. All right. We're going to try to go back and 
forth here and somewhat in the order that people arrived and 
allow all the members that haven't asked questions to do so.
    Senator Manchin, you'd be next.
    Senator Manchin. Thank you, Mr. Chairman. I'm sorry that we 
got here late, and I'd like to--hopefully, I don't be redundant 
on some of the questions that have been asked.
    But, Mr. McConnell, I appreciate very much you coming and 
visiting with me, and we had a nice conversation. I think we 
talked about carbon capture sequestration, the things that 
should be done in order to use the resources that we have to be 
less dependent on foreign oil, which I think really threatens 
the security of our nation more than anything that we have 
facing us.
    On that, and that alone--you know, some of the decisions 
have been made on carbon capture sequestration in my state--
Mountaineer Plant. You might want to, if you want to, comment 
on that and how you think that there might be a way for us to 
move forward.
    Mr. McConnell. Senator Manchin, I, too, enjoyed the 
discussion. I think it's--first of all, first and foremost, 
it's important to recognize the commitment that not only the 
Department of Energy made for the past number of years at the 
AEP site in West Virginia, but also the learnings and the 
development that have gone on over those past 10 years 
advancing the science in both carbon capture as well as the 
geological understanding, the geological advancements.
    That project will actually continue, and we will have a 
first phase series of results that will be a big part of the 
overall program in CCPI and a lot of the work that has gone on 
for a number of years and really continue to advance the 
mission. As we discussed in previous conversations here today 
as well, we're also seeing at current state, in the absence of 
a carbon signal in the marketplace, in the absence of anything 
that would be on the short-term clear horizon, for the utility 
industry to simply take CO<INF>2</INF> and sequester it 
certainly provides environmental benefit. But it's clearly a 
challenge in terms of marketplace conditions to spend money and 
invest money.
    I think one of the things that we take pride in in Fossil 
is the fact that our research programs are heavily industry 
supported as well--cost shares typically as much as 50 percent. 
But, in fact, in many of the projects in our portfolio, we have 
as much as 10-to-1 industry participation versus government 
money.
    But, more specifically, how do we advance projects such as 
the AEP project? I made mention earlier today of the nine other 
projects we have in our portfolio where carbon dioxide can go 
to utilization opportunities for enhanced oil recovery, 
enhanced gas recovery, but not just for economic benefit, but 
for the benefit of the environment as well.
    So in Fossil, what you'll get from us is a commitment to 
advance the environmental footprint through the CCS program for 
sure, but to also weigh in hard with this economic advantage 
that has to be produced as well to utilize that CO<INF>2</INF> 
long term. So we're very encouraged with that, because these 
projects aren't just simply for research and development, but 
also will be a big part of our industry going forward.
    There's a lot of oil in your State as well, in western 
Pennsylvania and Ohio, in places where enhanced oil recovery 
today does not exist. Big markets--there are some studies that 
would indicate there's as much as 85 billion barrels of 
unrecovered oil in this country that with carbon dioxide could 
be brought up. That's a significant amount of economic 
advantage.
    Senator Manchin. Thank you.
    Ms. Wodder, do you believe that there's a balance between 
the economy and the environment to be found and use all the 
resources we have in this Nation?
    Ms. Wodder. Senator Manchin, I appreciate the question. I 
certainly agree with you that we need to find a balance. I 
often--as I said a moment ago, I often find that we can, in 
fact, enhance both environmental protection and our economic 
interest in finding creative solutions by bringing various 
parties together and having good collaborative discussions.
    Senator Manchin. I appreciate--in the job that you had 
before--your commitment and convictions, and I respect that. 
But I think it would be very hard for you to have an unbiased 
position on trying to use the resources that we have in this 
nation and be less secure. I have deep concerns about that, 
ma'am. If you have any way to explain how I could get a comfort 
with your being confirmed to the position you're seeking, I 
would like to hear it from you.
    Ms. Wodder. Certainly, Senator Manchin. I would point to 
the record that the organization I led previously, American 
Rivers, has compiled over the years and the many, many examples 
where American Rivers sat down at a table with other 
stakeholders and found consensus-based, collaborative solutions 
that enabled agricultural interests to irrigate, that enabled 
hydropower dams to continue to generate power, and at the same 
time were able to protect the environmental resources or 
restore environmental resources.
    It's been a practice that I have long believed in, that the 
best solutions are the ones that are arrived at in that kind of 
a collaborative approach. Those are the solutions that last. I 
would dedicate myself to that work should I be confirmed as the 
Assistant Secretary, a collaborative approach.
    Senator Manchin. Thank you so much. My time has expired.
    The Chairman. Senator Risch.
    Senator Risch. Mr. Chairman, thank you very much.
    Ms. Wodder, thank you for coming by my office and meeting 
with me. We had, I think, a frank and open discussion, and I 
find you a very nice person and deeply, deeply committed, 
personally, to the kinds of things that you've devoted your 
career to. Therein lies the problem.
    I have real difficulty with this, and I don't want to make 
this a secret. It troubles me deeply to have someone who's 
represented a special interest group to come and try to do what 
you're going to be asked to do in leading this agency. You 
know, every one of us is a product of our own philosophy. I've 
read what you've written before. Some of it's been quoted here 
today. I appreciate you coming in and trying to move to the 
center. But I'll tell you I have real difficulty with that.
    That's part of the problem today with what's happened with 
the advice and consent process. We're asked for consent but 
never asked for advice on this. I think if we were asked for 
advice on this, we'd say, ``Look, there's 330 million people in 
this country, and we ought to have someone much more neutral in 
a position such as you're being ask to do.''
    I wouldn't want to ask you to abandon what you seem to have 
as deep, deep convictions and principles that you've expressed 
in your previous writings and previous interviews. I don't 
think anybody would ask any one of us to do that. When we go to 
the voters and ask them to--it would be like me going to the 
voters and saying, ``Oh, send me to the U.S. Senate. I'm going 
to be moderate.'' I'm not moderate. I'm conservative. I've 
demonstrated that over my life. That's the deep feeling that I 
have. I know you have deep feelings about some of these 
environmental things.
    I think taking out dams is a good example. I've read your 
writings about the commitment that you have, as far as removing 
dams on the Snake River. I very much disagree with you on that. 
But, nonetheless, I admire the commitment that you've had over 
your lifetime to the principles that you feel are important to 
you.
    I think it would be very difficult for you to lead this 
organization. You're going to be asked to promote people, to 
give people raises, to deal with people in the agency, and 
there's no possible way you can set aside the deep convictions 
that you have to the principles that you have expressed. I 
wouldn't ask you to do that, and I don't think anybody should 
ask you to do that.
    Last, I would say that you've indicated you're going to 
recuse yourself from the items that you've been involved with 
since your agency is suing the organization to get certain 
things. You've said that you're going to recuse yourself from 
that. I don't know how that's possible. I understand that you 
can say that. But when you're standing at the water cooler or 
you're talking about raises for people or promotions for 
people, I don't see how that could help but be influenced by 
your involvement in those kinds of things.
    So I wouldn't be telling you the truth if I didn't tell you 
I have deep, deep reservations about you being able to do the 
job that you're being asked to do.
    Thank you, Mr. Chairman.
    The Chairman. Senator Portman.
    Senator Portman. Thank you, Mr. Chairman.
    Mr. McConnell, as you can imagine, your job is really 
important to Ohio. This is, I think, a key job for a lot of 
reasons, but one is because EPA has gone so far in terms of the 
regulatory side that it's threatening coal-fired plants all 
over the country. In Ohio, where we get 86 percent of our 
electricity from coal, it's particularly disturbing.
    We've had 2 utilities recently announce that they're going 
to close down plants because of what's happening--a huge job 
loss, a huge tax base loss in those communities. Higher 
electricity costs are projected for everybody at a time when 
our economy is struggling. So we want to be sure that somebody 
at DOE who is on the fossil fuel side--and you've got a good 
background--is providing a counterbalance, frankly.
    So if you could, I want to ask you to give me answers to a 
couple of these questions. I saw in your testimony--you said 
you're committed to addressing one of our nation's most 
critical challenges, ensuring the competitive, sustainable, and 
environmentally responsible use of our fossil fuel resources. 
Again, 50 percent of electricity comes from burning coal 
nationally and in Ohio about 86 percent.
    Let me just give you a list of some of these rules that are 
coming out that have a direct effect on what you talk about as 
our fossil fuel energy sources, given that dependence on coal: 
The Cross-State Air Pollution Rule; of course, the Utility MACT 
Rule; the Section 316(b) Rule; the National Ambient Air Quality 
Standards coming out--reconsideration that's voluntary of the 
2008 standards. When you look at the impact of all this, EPA 
has analyzed it, and they come out with an estimate of about 
16.7 gigawatts of coal-fired power would retire by 2015.
    Everybody on this committee would like to see continued 
progress on the environmental front and want to be sure we're 
breathing cleaner air. But we also want to be sure there's a 
balance. I think that's, you know, what we're not seeing right 
now, and I think we need somebody in your job who's going to 
fight for that.
    By the way, 16.7 gigawatts is on the low end of all the 
other estimates that are out there. I've got a list of 6 or 7 
other estimates: ICF's, FBR's, Energy Information 
Administration, North American Reality Corporation. If you add 
all those up, the average is about 50 to 60 gigawatts of power. 
That's about--that's over 20 percent, I think, of our coal-
fired capacity.
    So this is going on as we talk, and I guess I'd like to 
hear your comments on it. Secretary Chu has even said he 
expects a massive retirement within the next 5 to 8 years. 
Assistant Secretary Wood just gave an estimate recently. He 
said that he thinks it's going to result in the retirement of 
35 to 70 gigawatts. This is frightening.
    Can you give us your best estimate of it and tell us your 
perspective on it?
    Mr. McConnell. Senator Portman, I was born and raised in 
Steubenville over in the east part of the State, and I've got a 
home in Columbus today. Coal's been in my blood, I guess, from 
the day I was born. In terms of what it means and in terms of 
what it's meant over these years, it's undeniable. I think 
that's really the big challenge that we have at Fossil, in 
terms of continuing to have fossil play an important part of 
the mix going forward.
    The research and the work that we're doing--it has actually 
done a phenomenal amount of good in the marketplace in terms of 
NO<INF>X</INF>, SO<INF>X</INF>, mercury removal over the past 
40 years--all of it directly attributable to work that's gone 
on at the Department of Energy and the National Energy 
Technology Laboratory. We're continuing to keep fossil not just 
relevant, but continue to work toward making it that 
economically compelling choice, which doesn't make you tradeoff 
between environmental responsibility and economic viability, 
but, in fact, driving the technology forward to do both.
    Specific to your question, there are a lot of studies that 
are out there with a lot of different assumptions that people 
make in terms of when rules will come in and when they won't 
come in and they're proposed but they're not sure when they're 
actually going to come in. I can assure you there's an active 
conversation that's ongoing daily at the Department of Energy 
in terms of looking at the impact of these regulations and the 
analysis that's been done, looking at it in terms of 
specifically regional impacts in terms of reliability, in terms 
of the closures that have been discussed and the ability to 
meet that demand so the lights don't go out and the economies 
of providing power don't change for the American consumer 
materially.
    So you have my commitment from a fossil energy perspective 
that that conversation continues to be lively and it will be.
    Senator Portman. In the interagency discussions about this, 
do you commit that you will be an advocate for the balance? 
Given your Buckeye background and your Steubenville background, 
I think you understand that importance to our economy and to 
our jobs. As you say, there are ways to find balance. We've 
been doing it. I mean, we've made tremendous progress.
    In my own hometown, Duke just announced a week or so ago 
they're going to shut down the Beckjord Plant. You probably 
know the Beckjord Plant. So, you know, we're--obviously, it 
hits the tax base hard. We lose--I don't know--120 jobs or so--
the impact on, again, the electricity rates, which makes Ohio 
less competitive at a time when we're already struggling.
    Can you commit today that you will be an advocate 
internally for that balance and to be sure that we can continue 
to use the fossil fuels that we have?
    Mr. McConnell. I would commit to that personally. I believe 
if you look at the DOE's strategic roadmap, what I believe and 
what the department believes is that fossil will continue to be 
an important part of the mix going forward, absolutely.
    Senator Portman. I look forward to working with you, and, 
you know, I think this is an urgent need. When you look at the 
options we have to get this economy moving again, energy has to 
be at the top of the list. It has to include, in my view, doing 
some more energy here, including in places like your home area, 
where the possibility now through fracking and horizontal 
drilling exists to be able to extract natural gas, and in parts 
of Utica--as you know, oil and wet gas that are going to be 
incredibly important for jobs and needs to be done in an 
appropriate way--can be, has been. But we need you in there as 
an advocate.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    We'll try to do a second round now to the extent folks have 
additional questions. I do not have, but I would yield to 
Senator Wyden for a question he wanted to have, and then to 
Senator Murkowski.
    Senator Wyden. Thank you, Mr. Chairman.
    Ms. Wodder, like Senator Murkowski and Senator Risch and 
westerners, I am a very strong supporter of hydropower. It's 
enormously important in our region, and I want to see if I can 
clarify what you talked about--I believe it was with Senator 
Murkowski--and see if I can sort all this out.
    I heard you to say that you had worked with policymakers on 
hydro issues. Now, we had a bill that came out of committee May 
18th of this year. Senator Murkowski and Senator Risch and 
Senator Crapo on the Republican side, Senator Begich, Chairman 
Bingaman, myself on the Democratic side, had strong bipartisan 
support. I think that's the bill that you indicated you all had 
worked with us on. It's called the Hydropower Improvement Act 
of 2011--strong bipartisan support, the senators I mentioned 
from the committee.
    Isn't that the bill--because I asked staff--I remember some 
discussions with a host of both power producers and 
environmental folks and--that's what we always do in trying to 
get a bill together. Chairman Bingaman's counsel on these 
things is very valuable. I think you all were part of that and 
were supportive of that bill. Is that what you were talking 
about?
    Ms. Wodder. Yes, Senator Wyden, that is. American Rivers 
worked collaboratively with the National Hydropower Association 
and with committee members and their staffs to make that 
legislation a success. We were very proud to be part of that 
effort.
    Senator Wyden. OK.
    Thank you, Mr. Chairman.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Let me follow on there because I want to get to some of the 
specifics. I asked you a pretty general question when it came 
to your support or opposition of hydro in general. In Alaska, 
we've got a lot of lake tap hydropower generation. Would you 
support providing tax credits and Federal incentives for lake 
tap hydro projects?
    Ms. Wodder. Lake tap?
    Senator Murkowski. Yes.
    Ms. Wodder. Senator Murkowski, I would begin by saying that 
as President and CEO of American Rivers, I covered a wide 
spectrum of issues. I'm not personally an expert in hydropower, 
although I have learned quite a bit about it over the many 
years that I was at American Rivers. So I can't comment on the 
particular question that you asked.
    But I would say that this nation needs the power that 
hydropower can provide. It should be determined on a case-by-
case basis, oftentimes with proper siting, operations, and 
mitigation. We can have a complement of hydro--increased 
generating capacity along with good environmental protection, 
and that's what American Rivers has worked for during the time 
that I served as the president.
    Senator Murkowski. One of the great benefits from lake tap 
hydro and why it works so well in a State like mine--we've got 
very high alpine lakes. We tap the water flow from the bottom 
of the lake. It lets the water flow out to generate the power. 
There's no impact to our fisheries or our stream flows. We 
think it's a pretty magnificent way to provide for power 
generation.
    We have not had the support of American Rivers when it 
comes to the tax credits, the Federal incentives that we were 
seeking to provide for a designation that hydropower be 
considered as a renewable energy source. I think it's something 
that, again, we look at. All hydropower does not look like the 
Hoover Dam. We've demonstrated that in Alaska.
    Pump storage--again, this is an area where we believe that 
you can have considerable benefits to the environment as well 
as the consumer. But it is an area where American Rivers has 
opposed us on this power source generation. So I'm trying to 
determine, again, where you are coming from when it comes to 
hydroelectric generation.
    You've been very general in your response, saying that we 
need greater commitment to hydro, and I would certainly endorse 
that. But I think it is going to be critically important, if 
you are to be confirmed to this position, that there be a 
recognition that all hydro is not--I guess it's not the same.
    Have you formed a conclusion on Alaska's project that I 
mentioned, the Susitna Dam project, which would be new dam 
construction? It would be a large dam. Have you formed an 
opinion as to that specific project?
    Ms. Wodder. Senator Murkowski, I do not have an opinion on 
the particular project that you raise. I would like to say that 
should I be confirmed in this position of Assistant Secretary 
for Fish and Wildlife and Parks, the decisions on hydroelectric 
power projects would not be under my jurisdiction. That would 
be under the jurisdiction of the Federal Energy Regulatory 
Commission.
    Senator Murkowski. That is correct. But the Fish and 
Wildlife Services absolutely do weigh in, and this is something 
that we see in our State on a considerable number of issues. 
It's not just the hydro projects. American Rivers has listed 
the Bristol Bay watershed as the No. 2 most endangered river 
system. This is going to have--potentially could have an impact 
on that project in Alaska.
    Is it something that Fish and Wildlife is integral to? No. 
Is it something that they weigh in on? Absolutely, yes. So 
there are areas where, yes, you are not the--I guess, the 
primary agency that weighs in. But there is a great deal of 
influence that is generated through the various agencies, and 
you would be playing a role there.
    Let me ask you about the Bristol Bay watershed. This is 
something, again, that while you were CEO at American Rivers, 
the watershed was named the No. 2 most endangered river system. 
Do you have any views that you could share with me on the 
Pebble Project? Or do you agree with American Rivers' position 
on this?
    Ms. Wodder. As you point out, my former role at American 
Rivers--Bristol Bay was raised because of the Pebble mining 
project. If I were to be confirmed in this new role, of course, 
mining is under--not under the jurisdiction of the Fish and 
Wildlife and Parks section of the Department of Interior----
    Senator Murkowski. But, again, you do weigh in.
    Ms. Wodder. The Fish and Wildlife Service, in particular, 
plays a consulting role, particularly if there are endangered 
species involved. I would commit to you that I understand the 
difference between the role I played previously as an advocate 
for healthy rivers and, if confirmed, the role I would play as 
an administrator of the laws and directives of this Congress, 
the policies and positions of the administration.
    I believe myself to be an open-minded person, a good 
listener. I'm interested in the points of view of all of the 
stakeholders and would seek creative, collaborative, consensus 
solutions that would meet the needs of everyone involved, and I 
make that commitment to you.
    Senator Murkowski. It, I think, is important to recognize 
that in a State like Alaska or many of the western States, 
where so much of our lands are owned by the Federal Government, 
that the agencies that have any aspect of influence or are part 
of the decisionmaking process--we recognize that they can slow 
down, they can impede, they can kill opportunities, projects. 
So whether or not your agency, were you to be confirmed, would 
have, again, that primary oversight is not necessarily 
controlling, because what we're seeing, whether it is 
development on the National Petroleum Reserve or whether it is 
issues as they relate to navigability in our rivers--there are 
avenues where the Federal agencies weigh in, and the next thing 
you know, we have a project that is stalled for a period of 
years, opportunities that are foregone, and it causes a level 
of frustration within our State, in terms of our ability to 
access our resources, provide for jobs, and really to benefit 
the American economy.
    Mr. Chairman, one last question, and I think it will be 
very quick.
    This relates to the quote that Senator Barrasso made 
relating to hydraulic fracturing. This is your quote, that 
hydraulic fracturing has a nasty track record of creating a 
toxic chemical soup that pollutes ground water. Senator 
Barrasso also mentioned that Administrator Jackson has told 
Congress that there have been, quote, ``no proven cases where 
the fracking process itself has affected water.''
    Do you stand by your statement? If this is an opportunity 
to retract your statement, I'd like to give you that 
opportunity to do so.
    Ms. Wodder. Thank you, Senator Murkowski. As I have said, I 
believe natural gas is an important part of the overall energy 
mix for this country. I think it needs to be approached in a 
careful way so that we don't at the same time develop--as we 
are developing that resource, contaminate other important 
resources like clean water.
    Senator Murkowski. I agree with that. But do you agree, or 
do you stand by your statement that there is a nasty track 
record of creating a toxic chemical soup that pollutes ground 
water?
    Ms. Wodder. I believe there have been any number of press 
reports and also academic studies that have found numerous 
instances of both accidental and intentional spills of fracking 
fluids into surface and ground water----
    Senator Murkowski. Even though the administrator has said 
that there are no proven cases where the fracking process 
itself has affected water?
    Ms. Wodder. I think there is a distinction between the 
fracking process itself and activities surrounding hydraulic 
fracturing that have led to some contamination. Most companies 
operate responsibly and strive to avoid those sorts of 
accidental and occasionally intentional spills. But there 
certainly have been many records of fines that have been levied 
against a few companies that have had those sorts of problems.
    Senator Murkowski. I take it you don't retract your 
statement.
    Mr. Chairman, I appreciate the opportunity that you've 
given so many of us to ask multiple rounds. These are important 
questions, and I appreciate the witnesses today, and we will 
move forward.
    The Chairman. Let me thank both of you for being here and I 
appreciate your testimony. The committee will undoubtedly move 
ahead on the nominations sometime in the reasonably near 
future.
    Thank you. That will conclude our hearing.
    Let me mention one other thing. We will advise members that 
if they have additional questions to submit for the record, 
they should have those to us by 5 tomorrow. We would, 
obviously, appreciate it if the witnesses could respond to 
those.
    Thank you.
    [Whereupon, at 11:24 a.m. the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

      Responses of Rebecca Wodder to Questions From Senator Wyden

                              OREGON CAVES

    Question 1. I have a bill to expand the Oregon Caves National 
Monument boundary by 4,084 acres to include the entire Cave Creek 
Watershed, by transferring that land from the United States Forest 
Service to the National Park Service. The Park Service has long 
supported expanding the Monument boundary--a position held since the 
1930's and articulated in the Monument's 1998 General Management Plan. 
While legislation will be needed to complete that transfer, I have been 
disappointed that the Agency has supported deferring action on my 
legislation to see if more cooperative management approaches could be 
worked out with the Forest Service. My understanding is that such 
dialogue has been going on for several years but has failed to produce 
a result. I understand both Agencies will need to come to the table and 
that is not all within your control, but can I get your commitment that 
if confirmed you will look anew at my Oregon Caves legislation, and 
seek to work out a solution with the Forest Service to better protect 
this resource until my legislation passes and the transfer is 
completed?
    Answer. I appreciate that you are very interested in the protection 
of the resources at Oregon Caves National Monument. If I am confirmed 
as Assistant Secretary, I commit that I will make this one of my top 
priorities for Oregon, and will seek to work toward an appropriate 
solution with the Forest Service.

                        CRATER LAKE OVERFLIGHTS

    Question 2. I have been very alarmed by efforts of a helicopter 
company to seek to do air tours over Oregon's only National Park--
Crater Lake. This park is absolutely a gem in our state and my 
constituents especially treasure the serenity and silence of the place. 
I managed to get an amendment in the Senate's Federal Aviation 
Administration (FAA) bill that would allow the Park Service to reject 
this application without first having to complete an air tour 
management plan. I hope that this is an authority the National Park 
Service would use if the final FAA bill is enacted with this provision. 
Can I get your assurance that if confirmed you would direct the 
National Park Service to utilize this new authority in determining 
whether an application to lead air tours over Crater Lake should be 
denied?
    Answer. If confirmed, I will ensure that the National Park Service 
utilizes all available authorities to protect the resources and visitor 
experience at Crater Lake National Park.

                        EAGLES AND WIND TURBINES

    Question 3. Oregon and other states have wind energy projects in 
the permitting process that are now being stopped by the Fish & 
Wildlife Service because of possible impact on Golden Eagles and other 
species. I understand that there are laws on the books that FWS is 
obligated to enforce governing eagles, but the guidance that FWS has 
released for developers is coming after some companies have spent years 
in development and is simply not practical--like requiring them to stop 
everything and collect 3 years worth of additional bird population 
data. Renewable energy development is critical to protecting the 
environment from climate change and other impacts from fossil fuel, if 
confirmed, what will your position be on development of regulations and 
permitting for wind turbines?
    Answer. Investment in renewable energy is a priority for President 
Obama and Secretary Salazar. Although I am not yet familiar with the 
details of the Department of the Interior's work with the wind industry 
on its efforts to meet the requirements of the Migratory Bird Treaty 
Act and the Bald and Golden Eagle Protection Act, I understand that 
both Secretary Salazar and Fish and Wildlife Service Director Dan Ashe 
are committed to facilitating wind development projects in ways that 
meet the Department's wildlife conservation responsibilities. I also 
understand that the reason the Fish and Wildlife Service is developing 
voluntary guidelines is to provide the industry and the agency with 
tools and guidance to get projects up and running. I understand that 
revised draft wind energy guidelines, which contain certain changes to 
address concerns of the wind industry, were recently published to allow 
for additional public review. I support a process that fully considers 
the input of the public, including the wind industry. If confirmed, I 
look forward to gaining a full understanding of this issue, and I will 
do all I can to support the Department's strong commitment to renewable 
energy in concert with its obligation to protect wildlife populations.

                   APPLEGATE DAM AND LOW-IMPACT HYDRO

    Question 4. You can't live in the Northwest without having an 
opinion about the impact of dams on salmon and other endangered fish 
species, but there is a real opportunity to develop low-impact hydro 
projects at existing dams and irrigation canals. Some of these projects 
can help pay for fish passage and provide increased in-stream flow that 
can really benefit fish. The problem is that the regulatory hurdles are 
making the perfect the enemy of the good and making some of these 
projects too expensive to complete. For example, there is one project 
in Oregon at Applegate Dam that is for a small 10 MW turbine at an 
existing dam that doesn't have fish passage now that has already been 
in the permitting process for 10 years. The Fish and Wildlife Service 
has now taken the position that they want the developer to build an 
off-site prototype of the fish screens and passage system. That's not 
realistic. If confirmed, will you agree to work with FERC and 
developers of these low-impact projects to find a better way of getting 
them approved so that both the economic and fish benefits can be 
realized?
    Answer. While I am not familiar with the specific issues associated 
with the Applegate Dam, if confirmed, I will work with the Fish and 
Wildlife Service, the Federal Energy Regulatory Commission, other 
federal agencies and developers to ensure permitting of projects that 
balance the needs of fish and wildlife conservation and promote new 
sources of renewable energy. I believe that finding common sense 
solutions involves collaborative discussions, appropriate involvement 
in project development, and timely permitting, and that these 
components are the best way to achieve environmentally sound projects.

     Responses of Rebecca Wodder to Questions From Senator Cantwell

    Question 1. Ms. Wodder, the Pacific Northwest relies on salmon and 
steelhead species that are vital to communities up and down the West 
Coast and depends on clean and affordable hydropower for the majority 
of electricity consumed in the region as the backbone for our economy. 
In the Northwest, federal agencies, state and tribal governments have 
been working for years on a new Biological Opinion to preserve 
Endangered Species Act listed salmon and steelhead populations in the 
Lower Snake and Columbia River Basin under a federal court order and 
protect the value of the Federal Columbia River Power System. The 
Northwest has been locked in litigation to achieve an appropriate 
balance between federal hydro power and federal salmon protections for 
almost 17 years. The current Court-ordered collaborative process on the 
2008 Biological Opinion has generated unprecedented regional consensus. 
The Obama Administration supports the science that underpins the 2008 
Biological Opinion and the bottom-up, collaborative, science-based 
approach it takes to protecting salmon. Your current employer, American 
Rivers, is a plaintiff in the court challenge to the current Federal 
Columbia River Power System Biological Opinion. Given the conflict that 
would arise if you are confirmed, will you commit to recusing yourself 
from any Endangered Species Act matter relating to the Federal Columbia 
River Power System and the 2008 Biological Opinion?
    Answer. I am no longer employed at American Rivers, having resigned 
my position on July 15, 2011. As I stated at my hearing, if confirmed, 
I will voluntarily recuse myself from participating in any Interior 
Department decisions regarding the Columbia-Snake River System for the 
full time I serve as Assistant Secretary for Fish and Wildlife and 
Parks. I will abide by the terms of my ethics agreement, including the 
applicable ethics rules and the Administration's ethics pledge, and I 
will regularly seek the assistance and guidance of the Department's 
Ethics Office. I have consulted with the Department's Ethics Office and 
understand that, as provided by the terms of my ethics agreement and 
the Administration's ethics pledge, I will not participate for two 
years in any particular matters involving specific parties in which 
American Rivers is a party or represents a party. It is important to 
note that, should I be confirmed as Assistant Secretary, federal 
management of the lower Snake River dams would not fall under my 
purview.
    Question 2. Ms. Wodder, will you commit to recusing yourself from 
any meeting, correspondence, action or influence in any way, or agency 
decision that is directly or indirectly related to pending legal 
proceedings in which American Rivers is currently engaged?
    Answer. As I stated at my hearing, if confirmed, I will voluntarily 
recuse myself from participating in any Interior Department decisions 
regarding the Columbia-Snake River System for the full time I serve as 
Assistant Secretary for Fish and Wildlife and Parks. I will abide by 
the terms of my ethics agreement, including the applicable ethics rules 
and the Administration's ethics pledge, and I will regularly seek the 
assistance and guidance of the Department's Ethics Office. I have 
consulted with the Department's Ethics Office and understand that, as 
provided by the terms of my ethics agreement and the Administration's 
ethics pledge, I will not participate for two years in any particular 
matters involving specific parties in which American Rivers is a party 
or represents a party. I also understand that the question of whether I 
would be recused from working on issues or matters ``indirectly related 
to pending proceedings in which American Rivers is currently engaged'' 
is important and complex and when such questions arise, I will seek the 
assistance and guidance of the Department's Ethics Office.
    Question 3. Ms. Wodder, hydropower is the largest source of clean, 
renewable energy in the United States, and Washington state produces 
almost a third of the nation's total. This affordable, emissions-free, 
and renewable power source has helped attract new business investments 
to the Pacific Northwest, including BMW's selection of Moses Lake, WA, 
as the home of its only carbon fiber manufacturing facility in North 
America, and a host of new Internet data centers. Nearly 75 percent of 
Washington's electricity is generated from hydropower, and the same 
dams irrigate Eastern Washington's farms which produce top crops such 
as apples, cherries, hops, and wheat. One of the concerns I have heard 
raised about your nomination is that as President of American Rivers 
you proved to be hostile to hydropower and worked to reduce its use in 
any way possible. Is this indeed the case, and how do you think it 
would affect your decision making as Assistant Secretary if your 
nomination is approved by the U.S. Senate?
    Answer. Throughout my tenure as President, American Rivers worked 
collaboratively with the hydropower industry to improve both energy 
generating capacity and environmental performance at the nation's 
hydropower dams. American Rivers recognizes that hydropower, properly 
sited, operated, maintained and mitigated, is an important part of our 
nation's energy mix. During my tenure, American Rivers and its partners 
worked through the Federal Energy Regulatory Commission's (FERC's) 
relicensing process provided by law to support the continued operation 
of hydropower dams with more than 16 thousand megawatts of capacity.
    Under my leadership, the organization worked with FERC to 
facilitate and improve hydropower relicensing. In the early to mid 
1990s, the licensing process was characterized by litigation and 
conflict. Shortly after my arrival, American Rivers opened a dialogue 
with members of the hydropower industry, as well as federal agencies 
and other stakeholders, to facilitate collaboration and settlement of 
hydropower conflicts. During that time, American Rivers also worked to 
negotiate new regulations for FERC known as the Integrated Licensing 
Process, which set up new timetables, cut down on process, improved 
permitting, and supported better, more integrated decisions among the 
various agencies with statutory responsibility. These regulations have 
been applauded by industry, agencies, and NGOs alike.
    Domestic energy development is a top priority of both President 
Obama and Secretary Salazar. If confirmed, I would support the 
Administration's efforts in this regard and guide a safe and 
responsible approach to balancing energy and environmental needs.
    Question 4. Ms. Wodder, last April the Senate Energy and Natural 
Resources passed a bipartisan bill I cosponsored called the Hydropower 
Improvement Act. The goal of the bill is to grow the domestic supply of 
hydropower and spur job creation in an industry that employs more than 
300,000 people. Specifically, the Hydropower Improvement Act would 
improve the development timeline for conduit and small hydropower 
projects and explore a two-year process for hydropower development at 
non-powered dams and closed-loop pumped storage projects. Further, the 
Act establishes a competitive grants program and directs the Department 
of Energy to produce and implement a research, development, and 
deployment plan for increased hydropower capacity. The bill also calls 
for studies on increased development at Bureau of Reclamation 
facilities and in-conduit projects, as well as suitable pumped storage 
locations. Can you explain why American Rivers opposed this 
legislation?
    Answer. American Rivers did not oppose this legislation. In fact, 
American Rivers testified in support of S. 629, The Hydropower 
Improvement Act, on March 31, 2011. American Rivers' staff worked 
closely with the National Hydropower Association and the Senate Energy 
Committee staff to develop this legislation.
    Question 5. Ms. Wodder, from the rainforests of the Olympic 
National Park, to the Icy Wilderness of the North Cascades National 
Park, to the iconic Mt. Rainier National Park, Washington state is home 
to three of the nation's crown jewels of the National Park System. 
Every year, over 7 million visitors come to our national parks which 
are the centerpiece for a $200 million dollar per year outdoor 
recreation industry in Washington state and provide my constituents and 
visitors with a unique natural experience that can be difficult to find 
on multiple use lands. Unfortunately, however, devastating storms and 
tremendous funding shortfalls for a number of years is compromising the 
ability of the National Park Service to protect our park resources. We 
have an historic opportunity to turn this trend around with the one 
hundredth anniversary of the creation of the National Park System only 
five years away. Would you agree with me that when visiting the 
National Parks visitors expect a different quality of experience than 
they do when visiting other public lands? Can you provide your views 
about National Park System management and how National Parks might be 
different from other federal lands?
    Answer. National parks have a special place in the hearts of many 
Americans and international visitors. I believe that visitors to our 
national parks expect, and receive, quality recreational and 
educational experiences. National parks are of intrinsic value to the 
public because of their scenic beauty and the recreational 
opportunities they provide, and to the scientific community because of 
their wealth of natural and cultural resources. As well as providing 
quality experiences for many millions of people, parks generate a great 
deal of economic activity in surrounding communities and are the 
primary source of revenue for some gateway communities. In terms of 
management, the National Park Service has a unique mission, that of 
preserving unimpaired the natural and cultural resources and values of 
the national park system for the enjoyment of this and future 
generations, when compared with other federal land management agencies, 
that have multiple-use missions.
    Question 6. Ms. Wodder, as you know, the Land and Water 
Conservation Fund is a critical program that provides money for many of 
the Department's acquisitions of federal lands for public parks and 
outdoor recreational use. Since former Washington state Senator, and 
Chairman of this Committee, Scoop Jackson created the fund in 1965, the 
LWCF have been used to acquire more than 4.5 million acres of unique 
lands, an area roughly equal to the size of New Jersey. Money from the 
LWCF's Stateside Grants Program has been essential in helping states 
and municipalities secure parks and green pace in the rapidly 
urbanizing west. I have heard from many of my municipalities that the 
small amounts of money awarded in the Stateside Grants Program go a 
long way in leveraging the purchase and permanent protection of a 
unique piece of property that can be enjoyed by the local citizens. We 
are very close to completing land acquisitions from willing sellers 
inside recent additions to Mt. Rainier National Park. Will you support 
efforts to prioritize LWCF funds directed towards completing land 
acquisitions at Mt. Rainier National Park?
    Answer. I agree that the Land and Water Conservation Fund is a 
critical program to ensure access to public parks, conservation and 
recreational areas. These funds support State and local governments' 
efforts to establish urban parks and community green spaces; to restore 
and provide public access to rivers, lakes and other water resources; 
and to conserve natural landscapes for public outdoor recreation use 
and enjoyment. I have been advised that the National Park Service 
prepares an annual request for Federal land acquisition funding through 
the Federal budget process, including specific requests from each park 
unit that has land acquisition funding needs, regional ranking of these 
requests, and national ranking of all requests from all regions within 
the National Park Service. I understand that Mount Rainier National 
Park land acquisition has been both a regional and national priority 
for the past several years. If confirmed, I commit to working with you 
and other interested Members of Congress, the National Park Service, 
the Secretary and the Administration to ensure that Mount Rainier's 
resource protection needs are met.

    Responses of Rebecca Wodder to Questions From Senator Murkowski

                              OIL AND GAS

ANWR
    Question 1. One of the leading issues in Alaska is finding a way to 
generate more crude oil production to help keep the Trans-Alaska 
pipeline in operation in the future. One way for that to happen is to 
tap the oil under the Arctic coastal plain lying under the Arctic 
National Wildlife Refuge. I have introduced legislation to open ANWR 
while limiting surface development to no more than 2,000 acres; I have 
also introduced legislation to permit only subsurface exploration and 
development of ANWR, currently allowing only directional drilling of 
the refuge from state land and waters outside of the refuge. Eventually 
I would hope that surface oil technology would allow the refuge to be 
fully tapped underground without any impacts to the wildlife and 
environment on the surface. What, if confirmed, will be your position 
toward allowing subsurface development of the Arctic coastal plain?
    Answer. Advancements in technology that make access to resources 
safer and reduce the environmental impacts of development represent 
significant and welcome progress. With this in mind, I share the 
Secretary's and the President's view that the Arctic National Wildlife 
Refuge is a very special place that must be protected. I am not 
familiar with the details of subsurface exploration and development of 
oil and gas resources, but if confirmed, I commit to gaining a fuller 
understanding of this issue and would be happy to meet with you 
personally to discuss it.
    Question 2. Your resume includes work on the Alaska National 
Interests Lands Conservation Act, the Act which created millions of 
acres of new wilderness and wildlife refuge in my state. With regard to 
the 1002 area of the Coastal Plain, which was set aside expressly for 
oil and gas exploration and where we have allowed for some exploratory 
drilling, have you had a chance to view my bill, S. 351, which was 
introduced with bipartisan support?
    Answer. I have not had the opportunity to review S. 351.

          a. The Senate Committee on Energy and Natural Resources held 
        a hearing about the technologies associated with new seismic 
        techniques and extended reach drilling that showed great and 
        really new possibilities for accessing the resource while 
        eliminating any permanent surface presence on these areas which 
        your work has sought to place off limits. Do you think that 
        accessing resources with new technology represents an 
        opportunity for more responsible development or is it a danger?

    Answer. As I noted in the response to the previous question, 
advancements in technology that make access to resources safer and 
reduce the environmental impacts of development represent significant 
and welcome progress. With this in mind, I share the Secretary's and 
the President's view that the Arctic National Wildlife Refuge is a very 
special place that must be protected. I am not familiar with the 
details of subsurface exploration and development of oil and gas 
resources, but if confirmed, I commit to gaining a full understanding 
of this issue and would be happy to meet with you personally to discuss 
it.

                                 HYDRO

Dam Construction
    Question 1. As President of American Rivers, you opposed the 
construction of new dams. You have drawn a distinction between your 
views expressed as an officer of American Rivers and your personal 
views. As an individual, can you see any possible scenario in which you 
would support the construction of a structure that creates a new 
impoundment on an otherwise free-flowing river or stream? Please answer 
``yes'' or ``no.'' Are you familiar with Alaska's Susitna Dam project, 
and if so, do you believe it should move forward?
    Answer. Yes, I believe decisions like this should be made on a 
case-by-case basis, and that with proper siting, operation and 
mitigation, new dams can be appropriate, provide economic benefits and 
support a healthy environment. No, I am not familiar with Alaska's 
Susitna Dam project.

          a. What is your view of the rights and obligations of the 
        Fish and Wildlife Service and State resource agencies with 
        respect to hydroelectric licensing under the Federal Power Act?

    Answer. If confirmed, I will faithfully implement all applicable 
laws, regulations and Administration policies. I do not have detailed 
knowledge of the specific responsibilities of the Fish and Wildlife 
Service under the Federal Power Act. I am aware from my experience that 
the Fish and Wildlife Service and States have a responsibility and an 
opportunity to balance conservation with hydroelectric generation 
needs. The agencies' roles are to ensure that fish and wildlife, 
especially aquatic resources and habitats, are given full consideration 
in the licensing process. A primary role of the Fish and Wildlife 
Service under the Federal Power Act is that the agency may prescribe 
the construction and maintenance of fish passage structures necessary 
to ensure effective passage of fish. I am told that various authorities 
support these roles.

          b. Are you committed to prompt interactions between the 
        agencies? Can I count on you to intercede in cases where there 
        has been delay, especially to the extent that the Department of 
        Interior or any of its constituent agancies has failed to meet 
        a legal or regulatory deadline?

    Answer. Yes. If confirmed, I will work to ensure prompt, timely 
action and I will respect statutory and regulatory deadlines.
    Question 2. Secretary Chu of DOE has said that hydro power can 
generate 20,000 to 60,000 megawatts of new electricity simply by 
electrifying existing dams. That doesn't even take into account what 
pumped storage or conduit projects might produce. What is your position 
toward allowing much less encouraging hydro power to produce far more 
than the 7 percent of U.S. electricity that it currently accounts for?
    Answer. If confirmed, I commit to undertake efforts to evaluate 
current practices to ensure that they are consistent with the 
Administration's goal of promoting renewable energy sources, including 
hydroelectric power, while conserving fish and wildlife. I support 
efforts to create policies and incentives that could significantly 
increase hydropower generating capacity via efficiency improvements 
that enable more power to be generated from the same water, add new 
capacity to existing hydropower dams, and add turbines to non-powered 
dams.
    Question 3. Please define ``obsolete or unsafe dam'' as it is used 
on any Form 990 filed by American Rivers and signed by you or referred 
to in any legal or administrative proceeding in which you were involved 
or that was pursued under your direction.
    Answer. An unsafe dam is defined by the Association of State Dam 
Safety Officials (ASDSO) as a dam that is either structurally or 
hydraulically deficient, leaving it susceptible to failure. Also, a dam 
whose very existence represents a danger (threat of drowning or other 
serious injury) to swimmers, boaters and other recreational users of a 
river may be considered unsafe.
    According to the Association of State Dam Safety Officials (ASDSO):

  <bullet> There are more than 87,000 dams currently under state 
        regulation
  <bullet> 10,127 have been classified as high hazard, meaning they 
        pose a serious threat to human life if they should fail
  <bullet> Of those high hazard dams, 1,333 have been identified as 
        structurally deficient or unsafe

    In terms of obsolescence, The American Society of Civil Engineers 
(ASCE) estimates that the average life expectancy of a given dam is 50 
years. In addition, dams may be considered obsolete if they no longer 
serve the functions they were designed to provide.
    Question 4. Please list the collaborative efforts regarding hydro-
electric facilities that you referenced in your testimony before the 
committee on July 28, 2011 and your involvement with each.
    Answer. American Rivers consistently considered the cost to replace 
lost hydropower generating capacity and identified means of replacing 
that generating capacity as part of its advocacy efforts. For example, 
on the Penobscot River in Maine, a collaborative effort between a power 
company, state and federal agencies, tribes, fishermen and 
conservationists succeeded in maintaining all of the project's 
hydropower generating capacity while removing two dams to open nearly 
1,000 miles of historic river habitat for endangered Atlantic salmon.
    Since 1995, American Rivers has either signed agreements or 
provided technical and financial support to local conservation groups 
that signed numerous comprehensive settlement agreements for the 
relicensing of hydropower projects. By signing these agreements, 
American Rivers and its partners affirmatively supported the continued 
operation of hydropower dams with more than 16 thousand megawatts of 
capacity.
    During my tenure at American Rivers, the organization worked with 
the Federal Energy Regulatory Commission (FERC) to facilitate and 
improve hydropower relicensing. In the early to mid 1990s, the 
licensing process was characterized by litigation and conflict. Shortly 
after my arrival, American Rivers opened a dialogue with members of the 
hydropower industry, as well as federal agencies and other 
stakeholders, to facilitate collaboration and settlement of hydropower 
conflicts. During that time, American Rivers also worked to negotiate 
new regulations for FERC known as the Integrated Licensing Process, 
which set up new timetables, cut down on process, improved permitting, 
and supported better, more integrated decisions among the various 
agencies with statutory responsibility. These regulations have been 
applauded by industry, agencies, and NGOs alike.
Legal Matters and Lawsuits
    Question 1. Please list all proceedings which you believe are 
covered by your recusal pledge as expressed before the Committee in 
testimony on July 28, 2011.
    Answer. As I stated at my confirmation hearing, if confirmed, I 
will voluntarily recuse myself from participating in any Interior 
Department decisions regarding the Columbia-Snake River System for the 
full time I serve as Assistant Secretary for Fish and Wildlife and 
Parks. I will abide by the terms of my ethics agreement, including the 
applicable ethics rules and the Administration's ethics pledge, and I 
will regularly seek the assistance and guidance of the Department's 
Ethics Office.
    I have consulted with the Department's Ethics Office and understand 
that, as provided by the terms of my ethics agreement and the 
Administration's ethics pledge, I will not participate for two years in 
any particular matters involving specific parties in which American 
Rivers is a party or represents a party.
    I understand from the Department's Ethics Office that if American 
Rivers is a party or represents a party to a current proceeding 
involving specific parties (such as a lawsuit), I will be recused from 
that proceeding. I also understand that the phrase ``particular matters 
involving specific parties'' has a specific meaning as defined by the 
Office of Government Ethics, and that the specific cases from which I 
will be recused are based upon the facts and circumstances raised by 
the actual issue presented. I understand that the question of whether I 
will be recused from working on issues or matters raised in previous 
cases in which American Rivers was a party but where the cases are no 
longer pending, is important and complex and when such questions arise, 
as I noted above, I will seek the assistance and guidance of the 
Department's Ethics Office.
    Finally, I have attached a spreadsheet provided by American Rivers 
that describes cases during my tenure at American Rivers in which 
American Rivers was plaintiff or co-plaintiff, cases in which American 
Rivers was a petitioner in Federal Energy Regulatory Commission (FERC) 
proceedings, cases in which American Rivers submitted an amicus brief, 
and cases in which American Rivers intervened primarily on behalf of 
the Federal government as an intervenor-defendant.
    Question 2. With respect to all litigation and/or formal dispute 
resolution activities that were engaged in by you or under your 
ultimate direction by American Rivers, Inc. (or any affiliate of 
American Rivers, Inc. of which you were an officer or director) on the 
day you resigned as an officer or director of American Rivers, Inc. and 
any such affiliate and during the two year period prior to your 
resignation, please provide a complete list of the proceedings 
(including docket numbers or other identifiers). To the extent that you 
were a party to the proceeding or the participation of American Rivers 
in the proceeding was under your ultimate direction, please include,

          a. All state and Federal court cases in which American Rivers 
        was a party, intervenor or amicus curiae; or filed, prepared, 
        advised on or counseled on any documents or testimony on behalf 
        of such a party; including all actions that were settled, 
        dismissed, dropped, stayed, arbitrated, or otherwise resolved.
          b. All regulatory and administrative actions in which 
        American Rivers was a party, intervenor or amicus curiae; or 
        filed, prepared, advised on or counseled on any documents or 
        testimony on behalf of such a party; including all actions that 
        were settled, dismissed, dropped, stayed, arbitrated, or 
        otherwise resolved.
          c. All state and Federal court cases, and all regulatory and 
        administrative actions, in which American Rivers provided or 
        was providing financial, legal, technical, administrative, or 
        any other kind of substantive support for any party as 
        described in subpart a) or b).

    Answer. Please see the response to the previous question. With 
respect to the additional information requested by this question, I no 
longer work at American Rivers and understand that American Rivers does 
not maintain a comprehensive record of the requested information.
    Question 3. Please describe the procedures or practices you 
followed during your tenure as CEO to determine whether to engage in or 
report on the progress of any of the matters described in the foregoing 
question. Please include any written directives, policy guidelines or 
mission statement prepared or issued by you or under your ultimate 
direction regarding such matters.
    Answer. I have attached a copy of the Litigation Approval 
Procedures for American Rivers. As provided in that document, decisions 
on whether to enter into litigation matters are made by the Litigation 
Review Committee of the Board of Directors and the General Counsel. 
Although I participated in discussions about major issues raised by 
such matters, as CEO of American Rivers, I had no formal role in this 
decision-making process.
    Question 4. For the period of your tenure as CEO, please describe 
your responsibilities concerning and involvement with the 
organization's efforts in legal or regulatory cases, rulemakings, 
applications or other administrative proceedings that involved the 
activities described in Part III, subpart 4 of the Organization's IRS 
Form 990 (Return of Organization Exempt From Income Tax) for 2009 and 
prior years, including, for example, projects such as ``logging, 
mining, drilling or damming near rivers,'' ``removing obsolete or 
unsafe dams,'' or ``protecting wetlands and other natural landscapes 
that provide clean water.''
    Answer. As President and CEO, I had overall responsibility for the 
organization's strategic, programmatic and financial operations. Being 
responsible for the overall strategic leadership of the organization, 
and not being an attorney, I was not directly involved in legal or 
regulatory cases, rulemakings, applications, or other administrative 
proceedings.
    Question 5. During your nomination hearing before the Environment 
and Public Works Committee last week you responded that you were only a 
party to 16 lawsuits during your time at American Rivers; can you 
please address the discrepancy in the figures?
    Answer. As I stated during my confirmation hearing before this 
Committee, it is my understanding that American Rivers was the 
plaintiff or co-plaintiff in 16 cases during my tenure. I have attached 
a spreadsheet provided by American Rivers that describes these cases. 
This spreadsheet also identifies cases in which American Rivers was a 
petitioner in Federal Energy Regulatory Commission (FERC) proceedings, 
cases in which American Rivers submitted an amicus brief, and cases in 
which American Rivers intervened primarily on behalf of the Federal 
government as an intervenor-defendant.
    Question 6. What is your view of the impact of litigation upon the 
work of the Fish and Wildlife Service? Would you agree that litigation 
over listing petitions has interfered with the listing or effective 
protection of endangered species? What is your view of environmental 
organizations who repeatedly sue to prevent energy and economic 
development?
    Answer. I understand that a high volume of listing petitions, 
together with litigation to enforce deadlines related to those 
petitions, has obliged the Fish and Wildlife Service (FWS) to divert 
substantial resources to making petition findings rather than listing 
proposals and final determinations. That has limited the FWS's ability 
to set and adhere to priorities in its listing program and has likely 
delayed protection of some high priority species. I believe strongly 
that a transparent, collaborative approach to problem-solving and 
looking for ways to resolve environmental concerns while balancing the 
need for development is more productive than costly, contentious and 
time-consuming litigation-driven decision making. I understand and 
appreciate the current context of limited budgets and the need to 
ensure that taxpayer dollars are being used efficiently to accomplish 
our common goals. I believe settlements negotiated between parties can 
accomplish these important objectives and is the interest of all 
stakeholders. In the context of the Endangered Species Act (ESA), 
effective implementation of the ESA must be responsive to both the 
needs of imperiled trust resources and the concerns of the public. I am 
aware that the FWS recently reached an agreement with a frequent 
plaintiff group on a multi-year work plan that, if approved by the 
courts, will enable the FWS to systematically review and address the 
needs of more than 250 candidate species over a period of six years to 
determine if they should be added to the Federal Lists of Endangered 
and Threatened Wildlife and Plants. If confirmed as Assistant 
Secretary, I commit to working with all of you on this Committee and my 
counterparts in the Administration to follow the Secretary's lead in 
making implementation of the ESA less complex, less contentious, and 
more effective.
    Question 7. [No Question]
    Question 8. Please provide copies of promotional and fundraising 
materials prepared over your signature or under your direction 
concerning the activities noted on Form 990 and in the prior questions.
    Answer. Attached are photocopies of promotional and fundraising 
materials for fiscal years 2010 and 2011 that were provided by American 
Rivers.*
---------------------------------------------------------------------------
    * Materials have been retained in committee files.
---------------------------------------------------------------------------
Public Lands
    Question 1. Concerning the Arctic National Wildlife Refuge in 
Alaska, the 1980 Alaska National Interest Lands Conservation Act 
contains a provision, Section 1326, that bars the permanent withdrawal 
of more than 5,000 acres in Alaska, without specific approval of 
Congress. The Department earlier this year launched a new planning 
effort for ANWR where the department refused to rule out seeking the 
creation of additional wilderness on the coastal plain, in addition to 
the more than 8 million acres that is already wilderness in the refuge. 
What is your view of the Department's ability to create new wilderness 
areas in Alaska, on top of the 58 million acres already so designated 
in Alaska?
    Answer. If confirmed, I will faithfully implement all applicable 
laws, regulations and Administration policies. I appreciate that Sec. 
1326 of the Alaska National Interest Lands Conservation Act provides 
that Congressional approval is needed for permanent withdrawals in 
Alaska of more than 5,000 acres. Under the Wilderness Act, only 
Congress can add lands to the National Wilderness Preservation System.
Izembek Refuge
    Question 2. The Congress in 2009 approved legislation to permit a 
land exchange where the State of Alaska and the King Cove Native 
Corporation would trade 61,000 acres to the federal government for 
inclusion in the Izembek National Wildlife Refuge, in return for the 
refuge giving up 206 acres to permit construction of a one-way road 
between King Cove and Cold Bay, plus a small tract in Kodiak. The road 
is dependent upon completion of an environmental impact statement on 
the effects of the road on waterfowl in the refuge. Do you have any 
views currently on the merits of the land exchange and will you commit 
to attempt to finish the EIS in a timely manner?
    Answer. I am not familiar with the details of the land exchange 
issue and cannot provide any views on its merits at this time. I am 
told that there is an ongoing process under the National Environmental 
Policy Act to develop an environmental impact statement (EIS) to assess 
the environmental impacts of a land exchange and identify a preferred 
alternative. If confirmed, I commit to working with the Fish and 
Wildlife Service to ensure that the EIS is completed in as timely a 
manner as practicable, in light of competing priorities and funding 
constraints.
    Question 3. While you were CEO at American Rivers, your former 
organization listed the Bristol Bay Watershed as the #2 Most Endangered 
River System, can you please tell me if your views are identical with 
American Rivers' view on this subject?
    Answer. It is my view that Bristol Bay Watershed is one of 
America's most endangered river systems.

          a. Can you please outline your views of the Pebble mine? 
        Would you be able to separate your personal views on a 
        controversial issue like this?

    Answer. Although I am not yet fully informed of this issue, I agree 
with your assessment that the Pebble mine is controversial, with strong 
views on both sides of the issue. Should I be confirmed, my 
responsibility would be to faithfully implement the policies and 
positions of the Administration and administer all the applicable laws 
and regulations. It is my understanding that Environmental Protection 
Agency (EPA) is the lead agency on the watershed assessment, and that 
the Corps of Engineers (Corps) would likely be the lead agency for 
permitting. The Fish and Wildlife Service's role would be to provide 
technical support and advise EPA or the Corps on fish and wildlife 
concerns. If confirmed, I would work to ensure that the Fish and 
Wildlife Service has the scientific resources to provide a thorough and 
objective assessment of the potential impacts to fish and wildlife.
    Question 4. Navigable Waterways/ANILCA: A particularly troubling 
issue many Alaskans are very concerned about is the jurisdiction over 
Navigable Waterways within the State of Alaska. Recently, there has 
been a number of high profile legal cases in which jurisdiction has 
been questioned. Can you please address your views regarding 
jurisdiction of navigable waterways within Alaska?
    Answer. Although I am not a lawyer, my understanding is that there 
is a well-established body of law recognizing federal authority to 
regulate activities on waters, including navigable waters within 
national park units in Alaska.

LWCF/National Park Service
    Question 5. In the President's proposed budget the Department of 
the Interior requested full funding for the Land and Water Conservation 
Fund of $900 million. Roughly half of these funds were specified for 
Federal Land Acquisition. Do you believe that the Federal Government 
should be purchasing more land when each of the land management 
agencies has a sizeable maintenance backlog, led by the National Park 
Service with a $10 billion backlog? Shouldn't we take care of the lands 
that we own before we purchase new land?
    Answer. I understand that the funding proposed for federal land 
acquisition in the FY 2012 budget request is part of a strategy that 
reflects the President's agenda to protect America's great outdoors and 
demonstrates a sustained commitment to a 21st Century conservation 
agenda. It reflects the strong support for land conservation and 
additional outdoor recreational opportunities that was voiced at the 51 
America's Great Outdoors listening sessions held last summer.
    I also understand that the lands identified for acquisition in the 
budget request address the most urgent needs for recreation; species 
and habitat conservation; and the preservation of landscapes, and 
historic and cultural resources. Such acquisition may also assist the 
government to achieve greater efficiencies that resolve management 
issues. In addition, increased federal land acquisition funding would 
provide more opportunities for landowners, if they wish, to sell their 
property yet ensure that it will be protected in perpetuity rather than 
developed in a way that threatens resources in national parks, wildlife 
refuges, forests, and other public lands.
    Addressing the deferred maintenance backlog remains a critical 
priority as the Administration continues to protect and conserve our 
country's natural and cultural resources.

Wilderness Society
    Question 6. According to your biography, you were the Director of 
Alaska Programs at the Wilderness Society, which gave you 
``responsibility for all conservation campaigns involving Alaska public 
lands.''

          a. Please describe the campaigns you were involved in, 
        including the goals you hoped to accomplish.

    Answer. I was the Alaska Director at The Wilderness Society over 25 
years ago and my memory of specific campaigns is quite limited. I do 
recall one campaign which involved an effort to open national parks in 
Alaska to sport hunting; my goal in that campaign was to maintain the 
decisions on sport hunting made by Congress when it enacted the Alaska 
National Interest Lands Conservation Act (ANILCA).

          b. Did you oppose any natural resource development in Alaska 
        during your tenure at the Wilderness Society? If so, which 
        resources, and where?

    Answer. As stated above, I held this position over 25 years ago. I 
do not recall any specific situation responsive to your question.
    Question 7. I am quite concerned by reports that the National Park 
Service is dragging its feet in responding to requests from electric 
utilities to be allowed to upgrade and assure the safety and 
reliability of electric transmission lines in park units, including 
lines crossing units that were established by Congress in areas already 
crossed by the power lines. For example, the National Park Service has 
delayed more than a year its scheduled completion of an environmental 
review of the proposed Susquehanna-Roseland transmission reliability 
project in Pennsylvania and New Jersey. It's an upgrade of an existing 
line that, for just four miles of its route, crosses the Appalachian 
Trail and Delaware Water Gap recreation area. The NPS study will now 
take, at a minimum, three years. Moreover, the Service has charged the 
proponents almost $5 million dollars for the study. For each mile of 
upgrade, NPS is taking at least nine months and more than a million 
dollars? If this is representative of the Service's approach to 
fulfilling the Administration's pledge to upgrade America's 
infrastructure, it sends a horrible signal of absurd delay and out of 
control costs.

          a. Do you endorse the way the NPS is performing its duties in 
        relation to the Susquehanna-Roseland transmission reliability 
        project? Are you comfortable with the time and expense imposed 
        by the Service on the transmission owners and their ratepayers? 
        Do you believe that a NPS NEPA review of a proposed reliability 
        upgrade to an existing transmission line using existing 
        easements and rights-of-way across NPS lands should cost more 
        than a million dollars per mile, and consume more than three 
        years?

    Answer. I am not familiar with the specific work of the NPS on this 
project. If confirmed, I commit to gaining a fuller understanding of 
this issue and would be happy to meet you with you then to discuss this 
further.

          b. Are you aware that Mid-Atlantic electricity customers, 
        including numerous federal agencies, will pay at least $200 
        million in extra grid congestion charges for each year of delay 
        in completion of the NPS review of the Susquehanna-Roseland 
        line? Do you believe that the NPS took these costs properly 
        into consideration in managing its review of the proposed 
        transmission upgrade?

    Answer. I am not familiar with the specific work of the NPS on this 
project. If confirmed, I commit to gaining a fuller understanding of 
this issue and would be happy to meet you with you then to discuss this 
further.

          c. Are you aware that the NPS, in performing its review of 
        the Susquehanna-Roseland project, has publicly proposed re-
        routing the line through a national wildlife refuge, state 
        park, heavily developed residential neighborhoods, and mature 
        forest areas set aside for conservation purposes?

    Answer. I am not familiar with the specific work of the NPS on this 
project. If confirmed, I commit to gaining a fuller understanding of 
this issue and would be happy to meet you with you then to discuss this 
further.

          d. If you were confirmed, would you encourage or discourage 
        the NPS from attempting to engineer changes in the Northeastern 
        regional power grid, or other transmission grid areas? Is high 
        voltage transmission grid planning an institutional competence 
        of the National Park Service? If not, do you think it should 
        be, or are you comfortable with the Service's current mission 
        as a land and resource stewardship agency?

    Answer. Again, I am not familiar with the specific work of the NPS 
on this project. My understanding is that NPS' direct role in siting 
powerlines is primarily to consider applications to locate power lines 
in parks when a utility applies for such a use.

          e. You have years of experience working with the Department 
        of the Interior, including the National Park Service, on 
        hydropower and other development and resource use matters. You 
        surely have some knowledge of the department's and agency's 
        energy infrastructure-related capacities and policies. Please 
        provide a written description, in detail, of what you 
        understand to be the National Park Service's current expertise 
        in electric transmission system planning. Please identify the 
        agency officials with training in and responsibility for high 
        voltage transmission system planning.

    Answer. While I appreciate your confidence in my knowledge of the 
department and agency's energy infrastructure, my experience has not 
provided me with this level of knowledge. If confirmed, I commit to 
gaining a fuller understanding of this issue and would be happy to meet 
with you then to discuss this further.

          f. Please identify the provisions of the NPS Organic Act, as 
        amended, or other statutes that grant the National Park Service 
        or other Interior Department agency, authority and 
        responsibility to site, evaluate, or otherwise administer any 
        aspect of the nation's high voltage electric transmission grid.

    Answer. My experience has not provided me with this level of 
knowledge. If confirmed, I commit to gaining a fuller understanding of 
this issue and would be happy to meet you with you then to discuss this 
further.

          g. Please describe what law would authorize the National Park 
        Service to propose or make a decision to authorize placement of 
        a new high voltage electric transmission line in a unit of the 
        National Wildlife Refuge System, on a state park, on private 
        residential property, or on any land not under the direct 
        jurisdiction of the National Park Service.

    Answer. I am not familiar with the specific work of the NPS on this 
project. If confirmed, I commit to gaining a fuller understanding of 
this issue and would be happy to meet you with you then to discuss this 
further.

          h. Given that the Interior Department has made it a high 
        priority to collaborate with other federal agencies and the 
        President in facilitating investments in energy and other 
        infrastructure across the country, and given the National Park 
        Service's large and strategically placed land holdings in the 
        East, Alaska, and other parts of the country, do you think the 
        NPS is helping or hurting the Department fulfill its 
        commitments? Do you think the Service's track record on 
        Susquehanna-Roseland reflects well on Secretary Salazar and 
        President Obama's ability to fulfill their promises or does it 
        make the President and Secretary look ineffectual?

    Answer. I am not familiar with the specific work of the NPS on this 
project. If confirmed, I commit to gaining a fuller understanding of 
this issue and would be happy to meet you with you then to discuss this 
further.

          i. Is the NPS's approach to the Susquehanna-Roseland 
        reliability project representative of how you would like to see 
        the agency handle requests for agency approvals by public and 
        private utilities to upgrade energy, communications, 
        transportation and other infrastructure that was in place on 
        lands before those lands were included in the national park 
        system? If not, why not? If so, why?

    Answer. Although I am not familiar with the specific work of the 
NPS on this project, I believe the National Park Service has a 
responsibility to examine applications made by utilities for permission 
to use park lands for power line construction.

          j. If confirmed, would you cooperate with Congress in 
        performing a comprehensive, public analysis of the decision 
        making process followed by the National Park Service in 
        connection with the NEPA analysis of the proposed Susquehanna-
        Roseland transmission reliability project? Would you support 
        and cooperate in making available to Congress all records 
        associated with the agency's activities, and agree to allow the 
        relevant superintendents to testify before Congress, including 
        testimony under oath?

    Answer. If confirmed, I would commit to learning more about this 
project and would be happy to meet you with you then to discuss these 
matters further.
    Question 8. Let me say that to the organization's credit and, I 
assume, to your credit, that tax return is easily accessible on its 
website. The tax return lists as ``exempt purpose achievements'' for 
two out of three of American Rivers' ``largest program services,'' 
removing dams and--and this is a direct quote-- ``preventing harmful 
and destructive projects such as logging, mining, drilling or damming 
near rivers.'' Now all of us are for conservation and responsible 
environmental protection, but I think most Americans would agree that 
equating ``logging, mining, drilling or damming near rivers'' with 
``harmful projects'' is an overreach. I know Alaskans do not view 
``logging, mining, drilling or damming near rivers to be ``harmful 
projects.''

          a. Do you believe that logging, mining, drilling or damming 
        near rivers is harmful?

    Answer. Some aspects of these operations on or near rivers can 
cause significant environmental harm to rivers. For this reason, 
Congress provided in the National Wild and Scenic Rivers Act protection 
to the river corridor extending for an average of a quarter mile on 
both sides of the river.

          b. Please name damming, drilling, mining or logging projects 
        you've supported and helped move to fruition.

    Answer. American Rivers' mission is to protect healthy rivers and 
clean water for people, wildlife and nature so that local communities 
can thrive. The organization has supported development activities, such 
as efforts to improve operations of dams, levees and other river 
infrastructure, in concert with mitigation measures to enhance 
environmental performance of development activities and to promote 
economic growth. For example, American Rivers worked with Alcoa Power 
Generating, Inc., the Tennessee Clean Water Network, local communities 
and property owners, the States of Tennessee and North Carolina, the 
National Park Service, the US Fish and Wildlife Service, the Bureau of 
Indian Affairs, and the US Forest Service on a hydropower dam 
relicensing for Alcoa's Tapoco hydropower project. Conservation 
interests and resource agencies agreed to support the continued 
operation of four hydropower dams on the Little Tennessee and Cheoah 
rivers for the next 40 years. Alcoa agreed to restore flows to two 
dewatered reaches, including a nine-mile section of the Cheoah River 
that had been virtually dry for more than 50 years, to recover native 
species and enable recreational activities from fishing to whitewater 
boating, enhancing the local economy with tourist revenue. Alcoa also 
approved a plan that preserves 10,000 acres of pristine lands adjacent 
to Great Smoky Mountains National Park, ensures passage for four 
endangered fish species, and provides more than $12 million for 
conservation projects and enhanced recreational facilities.

          c. With respect to dams--please provide an example of a dam 
        that is not, in the sense intended on the tax return of 
        American Rivers, ``obsolete or unsafe.''

    Answer. According to the American Society of Civil Engineers, there 
are approximately 80,000 large dams in the United States. Most of these 
dams are safe and serving useful purposes. During my tenure, American 
Rivers did not advocate the removal of safe and useful dams, with the 
exception of four dams on the lower Snake River, due to the need to 
recover endangered salmon.

     Responses of Rebecca Wodder to Questions From Senator Barrasso

    Question 1a. Please provide a list of all policy positions, legal 
actions or threats of legal action, press releases, policy analysis, or 
public statements made by American Rivers or officials with American 
Rivers during the time you served as CEO with which you disagreed or 
took an opposing view.
    Answer. I do not recall any instances. I stand by the work I did in 
my capacity as President and CEO of American Rivers. Throughout my 
career, my philosophy toward problem-solving has been an open, 
transparent and collaborative approach that includes a robust analysis 
of all alternatives. I believe this approach produces lasting solutions 
that best meet the needs of all stakeholders. As President and CEO of 
American Rivers, I had overall responsibility for the organization's 
strategic, programmatic and financial operations. In this capacity, I 
embraced and encouraged points of view that were different from my own 
as sources for new ideas, consensus and ultimately better decisions.
    Question 1b. Please provide a short explanation of what action you 
took as CEO, if any, to articulate your disagreement with the policy 
positions, legal actions, press releases, policy analysis, or public 
statements by American Rivers or officials with American Rivers.
    Answer. See answer to 1.a.
    Question 1c. Please provide a list of all policy positions, legal 
actions or threats of legal action, press releases, policy analysis or 
public statements made by American Rivers or officials with American 
Rivers during the time you served as CEO with which you now disagree or 
oppose.
    Answer. I do not recall any instances. I stand by the work I did in 
my capacity as President and CEO of American Rivers. Throughout my 
career, my philosophy toward problem-solving has been an open, 
transparent and collaborative approach that includes a robust analysis 
of all alternatives. I believe this approach produces lasting solutions 
that best meet the needs of all stakeholders. As President and CEO of 
American Rivers, I had overall responsibility for the organization's 
strategic, programmatic and financial operations. In this capacity, I 
embraced and encouraged points of view that were different from my own 
as sources for new ideas, consensus and ultimately better decisions.
    Question 2. When asked on August 5, 2007, ``what environmental 
group do you most admire and why?'' you stated:

                  I am a huge fan of the work of Center for the New 
                American Dream, which is offering practical choices for 
                living a more sustainable and high quality of life in 
                the U.S.

    When you made that statement, were you speaking as President of 
American Rivers, or as yourself?
    Answer. I was being interviewed as the President of American 
Rivers, but this was a personal opinion.
    Question 3. Do you agree with this statement from the Center for a 
New American Dream?

                  But even if GDP growth could solve the unemployment 
                problem, it shouldn't, because the cost in greenhouse 
                gas emissions is prohibitive.

    If so, please explain why. If not, please explain why.
    Answer. First, I would like to clarify that I have no contact with 
this organization, do not follow their work, and have not for many 
years, so I do not have the context by which to make any judgment or 
statement on what they mean by this statement. Let me make it clear 
however that I believe that the United States must continue to grow to 
ensure a healthy and strong future for our country and our children. I 
hope that the decisions we, as a country, make will put us on a path of 
sustainable growth where we can achieve long-term opportunities for all 
Americans and at the same time use our resources in the most effective 
way possible.
    Question 4. Do you agree with the following statement below on page 
3 from the U.S. Fish and Wildlife Service report entitled, ``Rising to 
the Urgent Challenge: Strategic Plan for Responding to Accelerating 
Climate Change''? If not, please explain why not.

                  As a Service, we are committed to examining 
                everything we do, every decision we make, and every 
                dollar we spend through the lens of climate change.

    Answer. I am familiar with the views of Dan Ashe, Director of the 
Fish and Wildlife Service (FWS), on this statement, and my views are 
similar to his. He has said that he agrees with the statement within 
its context as part of a larger strategic plan. The FWS's Climate 
Change Strategic Plan is aspirational, and not a mandatory requirement. 
The plan is not a regulation, a budget directive, or a policy 
requirement.
    Climate change is one of several factors the FWS considers in 
assessing the well-being of species, and fulfilling its mission to work 
with others in conserving fish, wildlife, plants and their habitats. 
The FWS is not responsible for the regulation of greenhouse gases, nor 
is it the FWS's role to address these causative factors through any of 
its statutory or regulatory authorities. Indeed, none of its statutory 
or regulatory authorities, including the Endangered Species Act, 
provide an appropriate mechanism to regulate greenhouse gases.
    The FWS is authorized and obligated, by statute, to conserve fish 
and wildlife resources, and therefore has an obligation to consider 
climate change, like other stressors on fish and wildlife and their 
habitat, in order to make responsible and fully-informed management 
decisions that make the best use of taxpayer dollars.
    If I am confirmed, it will be my responsibility and commitment to 
ensure that decisions will be made considering the full breadth of the 
best available science, and will be firmly based on the applicable 
statutory, regulatory, and policy frameworks.
    Question 5. You have made a number statements supporting taking 
action to address climate change in your career at Americans Rivers. If 
confirmed, do you believe your agency, in conjunction with other 
agencies, can predict with certainty what the weather, and the 
subsequent impact on the landscape, will be like in Wyoming in 5 years, 
10 years, or 50 years from now?
    Answer. No, it is not yet possible to predict with certainty the 
weather for any part of the Earth years into the future. While there is 
very broad agreement among a wide range of scientists, specializing in 
relevant fields, about the fact that the climate is changing, there is 
less understanding about precisely how this will affect the Earth's 
natural systems, including the weather in any given part of the world. 
For instance, although the Earth's surface is warming, it is possible 
that parts of the Earth will actually become cooler as a result. 
Questions about how climate change will affect the weather and other 
natural systems are the subject of on-going scientific investigation 
that is of great importance to land and wildlife managers. If 
confirmed, I will rely on the best available science on this issue to 
guide decisions in the future.
    Question 6. Can you predict, with certainty, how the Greater 
Yellowstone grizzly bear population will respond to environmental 
changes 5, or 10, or 50 years from now?
    Answer. No, I personally cannot predict with certainty how the 
grizzly bear will respond to environmental changes over the long term. 
The Fish and Wildlife Service has biologists and scientists who have 
made projections regarding how the population will respond, but I am 
not familiar with that research or its findings. If confirmed, I would 
be happy to meet with you to discuss this issue further.
    Question 7. Do you believe that computer predictive models today 
can accurately predict the weather, and the subsequent impact on the 
landscape, in Wyoming in 5 years, 10 years, or 50 years from now? If 
not, if confirmed, will you rely on such computer models to make 
decisions to commit taxpayer dollars to protect species based in whole 
or in part on predictive computer models that can not accurately 
predict the weather?
    Answer. I am not a meteorologist or climatologist, so I am not an 
expert in the accuracy of weather modeling. However, I think decisions 
regarding the effects of future weather and climate conditions should 
be made using the best available science.

       Responses of Rebecca Wodder to Questions From Senator Lee

    Question 1. Ms. Wodder, over the last 25 years American Rivers has 
filed or been a party to more than 140 lawsuits, many involving the 
federal government as an adverse party. If confirmed, you or someone 
under your direct authority will be on the opposite side of the 
negotiating table from American Rivers or a similar organization trying 
to settle disputes. What can you point to in your professional life 
that would assure us that you would represent the American people's 
best interests and not that of the environmental lobby?
    Answer. First, I can only speak to the 16.5 years that I served as 
CEO of American Rivers. I have attached a spreadsheet provided by 
American Rivers that describes the cases in which American Rivers was a 
plaintiff or co-plaintiff, cases in which American Rivers was a 
petitioner in Federal Energy Regulatory Commission (FERC) proceedings, 
cases in which American Rivers submitted an amicus brief, and cases in 
which American Rivers intervened primarily on behalf of the Federal 
government as an intervenor-defendant. I am not a lawyer and did not 
participate directly in legal negotiations on these cases.
    Importantly, I fully appreciate the difference between my former 
role as an advocate and, should I be confirmed, my future role as an 
administrator of the laws and directives of Congress. This 
understanding derives from more than 30 years of working with federal 
public servants and working as a legislative aide to Senator Gaylord 
Nelson from Wisconsin.
    Should I be confirmed, my approach to resolving controversial 
natural resource issues will be to reach out proactively, especially to 
those whose livelihoods are at stake, and listen carefully to their 
concerns and ideas. I will seek balanced approaches that take the needs 
of all stakeholders into account. I believe that lasting conservation 
solutions are best achieved through an open and transparent 
collaborative process that includes a robust analysis of all 
alternatives.
    Consistent with this approach, during my tenure at American Rivers, 
the organization worked with the Federal Energy Regulatory Commission 
(FERC) to facilitate and improve hydropower relicensing. In the early 
to mid 1990s, the licensing process was characterized by litigation and 
conflict. Shortly after my arrival, American Rivers opened a dialogue 
with members of the hydropower industry, as well as federal agencies 
and other stakeholders, to facilitate collaboration and settlement of 
hydropower conflicts. During that time, American Rivers also worked to 
negotiate new regulations for FERC known as the Integrated Licensing 
Process, which set up new timetables, cut down on process, improved 
permitting, and supported better, more integrated decisions among the 
various agencies with statutory responsibility. These regulations have 
been applauded by industry, agencies, and NGOs alike.
    Question 2. Please provide the Committee the year-by-year total of 
any sums that American Rivers received during your tenure from the 
federal government in grants, attorney fees, or through any other 
program.
    Answer. While I no longer work at American Rivers, I have asked 
them if they can provide me with the requested information. Attached is 
a list of the year-by-year total of moneys that American Rivers 
received during my tenure from the Federal government in grants and 
through other programs. I am not aware of any moneys that American 
Rivers received in attorneys fees from the Federal government.
                                 ______
                                 
    Response of Charles D. McConnell to Question From Senator Wyden

                              LNG EXPORTS

    Question 1. Your office is responsible for LNG export permits and 
recently approved a permit for an LNG terminal on the Gulf coast to be 
allowed to export U.S. gas. Dow Chemical testified before the Energy 
Committee just last week that tying U.S. natural gas prices to a global 
natural gas market would only raise U.S. prices and curtail one of the 
few competitive advantages that U.S. manufacturers are expected to 
have--low natural gas prices. I want to know what you think the U.S. 
policy on natural gas exports should be and whether your office is 
going to consider the overall impact on US consumers and 
competitiveness when considering export permits, not just the benefits 
to U.S. gas producers and terminal owners?
    Answer. Under Section 3 of the Natural Gas Act, anyone who wishes 
to export natural gas from the United States to a foreign country, or 
import natural gas to the United States from a foreign country, must 
first secure an order from the Secretary of Energy authorizing it to do 
so. This authority has been delegated to the Under Secretary under 
Delegation Order No. 00-002.00L (April 29, 2011), and further 
redelegated from the Under Secretary to the Assistant Secretary for 
Fossil Energy under Redelegation Order No. 00-002.04E (April 29, 2011). 
The importation and/or exportation of natural gas from/to a nation with 
which there is in effect a free trade agreement requiring national 
treatment for trade in natural gas, and the importation of liquefied 
natural gas, is deemed by law to be consistent with the public 
interest, and applications for such importation or exportation must be 
granted without modification or delay. In the case of a proposed export 
to a non-free trade agreement country, the Assistant Secretary for 
Fossil Energy, pursuant to redelegation authority, is required to issue 
such order, unless after opportunity for hearing, he finds the proposed 
export will not be consistent with the public interest.
    In evaluating an export application to non free trade agreement 
countries, the Assistant Secretary considers any issues required by law 
or policy, and to the extent determined to be necessary or appropriate 
takes into account numerous factors in making this public interest 
determination, including the domestic need for the natural gas proposed 
for export; adequacy of domestic natural gas supply; U.S. energy 
security; the impact on the U.S. gross domestic product, including the 
impact on consumers, industry, and domestic natural gas prices; jobs 
creation; U.S. balance of trade; international considerations; 
environmental considerations; consistency with the DOE policy of 
promoting competition in the marketplace through free negotiation of 
trade arrangements; and other issues raised in public comments and by 
interveners deemed relevant to the proceedings. I believe the 
provisions set forth in the Natural Gas Act represent an appropriate 
balance for considering factors related to LNG export application 
approvals.

 Responses of Charles D. McConnell to Questions From Senator Murkowski

        RELIABILITY AND AFFORDABILITY IMPACTS OF EPA RULEMAKING

    Question 1a. The EPA is aggressively promulgating a series of new 
rules and regulations on everything from greenhouse gas emissions to 
cooling water intakes. Much of these efforts would have a direct impact 
on the use of coal--our most abundant, affordable fossil fuel--to 
generate power in the United States. My primary concern about these 
rules, aside from the at-times questionable manner in which they're 
being pursued, is the impact they could have on the reliability and 
affordability of electric supplies. Affordable and secure sources of 
energy are key to American competitiveness.
    Do you share any of these concerns?
    Answer. Yes, I share your concern and desire to understand the 
potential impacts pending EPA regulations may have on the reliability 
and affordability of electric supplies. Sound Federal governance 
demands prudent evaluation of all benefits and costs associated with 
potential Federal regulations.
    Question 1b. The EPA is aggressively promulgating a series of new 
rules and regulations on everything from greenhouse gas emissions to 
cooling water intakes. Much of these efforts would have a direct impact 
on the use of coal--our most abundant, affordable fossil fuel--to 
generate power in the United States. My primary concern about these 
rules, aside from the at-times questionable manner in which they're 
being pursued, is the impact they could have on the reliability and 
affordability of electric supplies. Affordable and secure sources of 
energy are key to American competitiveness.
    If confirmed, how do you plan to interact with the EPA in the 
interagency process on these matters?
    Answer. The Office of Fossil Energy, in collaboration and 
coordination with other DOE offices, interacts with EPA through the 
formal interagency review process coordinated by the Office of 
Information and Regulatory Affairs within the Office of Management and 
Budget on pending EPA regulations impacting Fossil Energy concerns. In 
addition, technical staff at DOE are working with EPA technical staff 
to help ensure that all current technical and scientific data is 
available for consideration. If confirmed, I will take an active role 
in the interagency review process and work to make the analyses and 
reviews efficient and effective, in line with the President's Executive 
Order.
    Question 1c. The EPA is aggressively promulgating a series of new 
rules and regulations on everything from greenhouse gas emissions to 
cooling water intakes. Much of these efforts would have a direct impact 
on the use of coal--our most abundant, affordable fossil fuel--to 
generate power in the United States. My primary concern about these 
rules, aside from the at-times questionable manner in which they're 
being pursued, is the impact they could have on the reliability and 
affordability of electric supplies. Affordable and secure sources of 
energy are key to American competitiveness.
    Are you aware of the `Statements of Energy Impacts' that agencies 
complete in conjunction with major rulemakings (as defined by Executive 
Order 12866), and do you believe that those analyses could be made more 
useful for both the Office of Management and Budget as well as elected 
representatives in Congress who must decide if agency actions are 
reasonable and consistent with Congressional intent?
    Answer. Earlier this year President Obama reaffirmed the 
principles, structures, and definitions governing contemporary 
regulatory review that were established in Executive Order 12866 almost 
two decades ago. Our regulatory system must protect public health, 
welfare, safety, and our environment while promoting economic growth, 
innovation, competitiveness, and job creation. It must be based on the 
best available science. It must allow for public participation and an 
open exchange of ideas. It must promote predictability and reduce 
uncertainty. It must identify and use the best, most innovative, and 
least burdensome tools for achieving regulatory ends. And it must take 
into account benefits and costs, both quantitative and qualitative. If 
confirmed, I will take an active role in the interagency review process 
and work to make the analyses and reviews efficient and effective, in 
line with the President's Executive Order.

                           CLEAN COAL FUNDING

    The FY 2012 Budget Request sought no funding at all for clean coal 
demonstration projects because, ``these projects are already strongly 
supported through the 2009 American Recovery and Reinvestment Act.'' 
Indeed, the Department received $3.4 billion for carbon sequestration 
work under the Stimulus. Deploying the next generation of coal-fired 
technologies is vitally important, given the affordability and domestic 
availability of coal as an energy resource. But this is a lot of money, 
and we need to be certain that it is being leveraged in the most 
efficient way possible. I am concerned that the Department might be 
overemphasizing the longer-term goal of deploying carbon sequestration 
technologies at the expense of more attainable improvements in 
efficiency and diversified utilization.
    Question 2. Do you believe that the Department's coal-related 
spending is sufficiently diversified, to include not only work on 
carbon sequestration, but also work on improvements at existing plants; 
progress on the efficiency of more conventional, new electric-
generating units that may be deployed in the near-term; and 
gasification technologies for use in the production of plastics, 
synthetic natural gas, liquid fuels, fertilizer, and other products?
    Answer. DOE has supported the development of technologies 
applicable to several of the areas identified, including efficiency 
improvement, fuels, gasification technologies, and utilization of coal 
and CO<INF>2</INF> for chemical production. The development of 
technologies for carbon capture and sequestration (CCS) has become a 
priority to ensure that technologies are available for the power and 
other industry sectors to deploy at scale, and to meet the recent EPA 
regulations for CCS. The DOE stands ready to continue and expand work 
in the other areas of research, which have complementary benefits for 
CCS and the reduction of greenhouse emissions to the atmosphere, to 
meet the evolving needs of industry and the Nation.

             LOAN GUARANTEE PROGRAM SUPPORT FOR CLEAN COAL

    The Loan Guarantee Program, despite some growing pains, has 
remained a relatively well-supported program in Congress. I am 
concerned, however, that the Loan Guarantee Program's utility for clean 
coal and other fossil-based energy resources has not been as robust as 
it could be. While you would not be administering the Loan Guarantee 
Program as an Assistant Secretary for Fossil Energy, if confirmed you 
would certainly be in a position to explain the importance of 
supporting everything from efficiency improvements, to gasification, 
liquefaction, and carbon sequestration using the tools available at the 
Loan Guarantee Program office. I am concerned that if this program does 
not re-establish it's broad applicability to a wider variety of energy 
sectors, it could lose much of the support it has enjoyed in recent 
years.
    Question 3a. If confirmed, how do you anticipate interacting with 
the Loan Guarantee Program Office, not only as a resource on technical 
matters but as an advocate for deploying the next generation of clean 
coal technologies using all tools available to the Department?
    Answer. If confirmed, I will work very closely with the Loan 
Programs Office to ensure the Department takes full advantage of the 
synergy inherent in combining the results of our fossil energy 
research, development, and demonstration work with the financial 
support afforded by loan guarantees. Loan guarantees mitigate financial 
risk for first movers willing to invest in clean energy technologies, 
including advanced coal facilities and therefore will accelerate market 
penetration of clean coal facilities, allowing the production of 
electricity, fuels, and chemicals in the most environmentally-friendly 
manner practicable.
    Question 3b. The Loan Guarantee Program, despite some growing 
pains, has remained a relatively well-supported program in Congress. I 
am concerned, however, that the Loan Guarantee Program's utility for 
clean coal and other fossil-based energy resources has not been as 
robust as it could be. While you would not be administering the Loan 
Guarantee Program as an Assistant Secretary for Fossil Energy, if 
confirmed you would certainly be in a position to explain the 
importance of supporting everything from efficiency improvements, to 
gasification, liquefaction, and carbon sequestration using the tools 
available at the Loan Guarantee Program office. I am concerned that if 
this program does not re-establish it's broad applicability to a wider 
variety of energy sectors, it could lose much of the support it has 
enjoyed in recent years.
    Do you share my concern that narrowing the utility of the Loan 
Guarantee Program to certain technologies could harm the prospects for 
ongoing support from Congress?
    Answer. I fully recognize the important contribution that 
government-sponsored financial support under the Loan Guarantee 
Program, covering the many eligible energy technology sectors, has 
played in the advancement of complex, large-scale, clean power and 
alternative-fuel projects. If confirmed, I will work diligently with 
the Secretary to ensure that the resources at my disposal are fully 
used in conjunction with DOE programs to further our Nation's energy 
independence and environmental objectives.

                         ALASKA ENERGY SOURCES

    Question 4. The Arctic Energy Office is under NETL's umbrella and 
is situated in Fairbanks. Do you view Arctic energy sources as an 
important part of your (potential) office's portfolio? Will you commit 
to keeping the Arctic Energy Office active and engaged? Do you have 
thoughts on replacement after Brent Sheets' retirement?
    Answer. I believe Arctic energy sources would be an important part 
of my portfolio should I be confirmed. The Office of Fossil Energy is 
actively working to keep the Arctic Energy Office staffed; NETL 
assigned a staff member to the Office in early August to maintain 
continuity in the relationships with important stakeholders in the 
region like the University of Alaska and the industrial community.
    In the current fiscal year, we are coordinating with the Office of 
Science to continue a CO<INF>2</INF> injection field test with 
ConocoPhillips to explore novel methods of producing methane hydrates 
while storing carbon dioxide. This will be a critical test for the 
characterization of hydrate deposits as well as identifying an 
important method for producing methane from hydrates.

                         CLEAN ENERGY IN ALASKA

    Question 5. Can you talk about your commitment to exploring methane 
hydrates--as I understand it, there are literally thousands of years 
worth of clean energy supply if we can figure out how to commercialize 
our offshore and onshore methane hydrate resource?
    Answer. While global estimates of the methane hydrate resource vary 
considerably, the energy content of methane occurring in hydrate form 
is immense. However, future production volumes are speculative because 
methane production from hydrate has not been documented beyond small-
scale field experiments. Methane hydrate research within the Office of 
Fossil Energy aims to develop the tools and technologies to allow 
environmentally safe methane production from arctic and other domestic 
offshore hydrates.
    In the current fiscal year, we will continue a CO<INF>2</INF> 
injection field test with ConocoPhillips to explore novel methods of 
producing methane hydrates while storing carbon dioxide. This will be a 
critical test for the characterization of hydrate deposits as well as 
identifying an important method for producing methane from hydrates. It 
is being conducted in coordination with the Office of Science, whose 
interest lies in the fundamental geochemistry associated with the 
carbon-dioxide /methane exchange process.

                     UNDERGROUND COAL GASIFICATION

    There has been some demonstrated interest in the potential of 
Underground Coal Gasification in the Beluga Coal Field near Cook Inlet. 
This is very interesting to South Central Alaska since the Cook Inlet 
area is running low of its lowest cost natural gas resources. 
Underground or in-situ gasification may have potential in producing 
synthetic natural gas, power, or feedstocks for liquid fuels and 
chemicals. There may also be opportunities to perform underground coal 
gasification in concert with carbon capture and sequestration (CCS) at 
comparatively low cost. And this is not just a potential technology for 
Alaska as there are sites in Wyoming and elsewhere in the U.S. that may 
be good candidates for Underground Coal Gasification.
    Question 6a. What is your view of the prospects for underground 
coal gasification?
    Answer. Over the past several years, Underground Coal Gasification 
(UCG) has regained worldwide interest with many projects being 
developed or in operation in several countries including Australia, 
South Africa, China, and Canada. UCG has the potential to add to our 
recoverable reserves that are not currently economically recoverable 
because they are of too low heating value, too deep, or even too thin. 
In a recent report to the DOE, the National Coal Council concluded that 
UCG has the potential to increase recoverable coal reserves by 300 
percent to 400 percent and appears to be cost-competitive with other 
coal-based technologies. This technology requires RD&D to ensure safety 
of environment and to fully understand the economics before being 
deployed wide-scale in the U.S.
    Question 6b. Does the Department have or do they plan a research 
and development program centered on underground coal gasification? If 
not, why not?
    Answer. The DOE does not currently have a program that directly 
supports the development or deployment of Underground Coal Gasification 
(UCG) technology due to funding constraints. DOE together with Lawrence 
Livermore National Laboratory (LLNL) conducted research tests at Hoe 
Creek and Rocky Mountain in Wyoming in the 1970s and 1980s. Several 
additional tests were also conducted in the United States during the 
period. Since those tests, work on UCG within the U.S. all but 
disappeared until the mid-2000s when some small studies were conducted 
to explore possible synergies of UCG with Carbon Sequestration, whereby 
the CO<INF>2</INF> can be placed back in the seam to avoid greenhouse 
gas emissions. However, the more recent improvements in Carbon 
Sequestration technology can be directly applied to research needs of 
UCG.

              CCS R&D AFTER MOUNTAINEER PROJECT SUSPENSION

    Thinking long-term, carbon capture and sequestration could be 
tremendously important to the future of coal. While there are some 
encouraging activities underway, American Electric Power recently 
decided against moving forward with its Mountaineer CCS project, 
despite $334 million in support from the Stimulus bill.
    Question 7a. Could you put the suspension of the Mountaineer 
Project in context for us? Where does this leave the clean coal program 
and DOE's work on CCS?
    Answer. AEP has notified NETL's Contracting Officer of its decision 
to dissolve the current Cooperative Agreement following the completion 
of Phase 1 activities scheduled for September 30, 2011. While this 
dissolution will end DOE's involvement in the project, AEP has said it 
will place their proposed 235 MWe demonstration of the Chilled Ammonia 
Process (CAP) on hold until such time that there is a regulatory 
framework for CCS that will allow AEP to recover their investment 
through the Public Utility Commission's rate recovery process.
    DOE still has three other active CCS projects within the Clean Coal 
Power Initiative (CCPI) program, including Southern Company's IGCC/CCS 
project in Mississippi, NRG's post-combustion/CCS project in Texas, and 
Summit's IGCC polygen/CCS project in Texas. In addition to these three 
projects, DOE is currently renegotiating the Cooperative Agreement for 
the HECA IGCC project in California in light of that project's planned 
sale to SCS Energy. The major impacts of AEP's decision on the CCPI 
program are two-fold: 1) Only one project will remain that addresses 
CCS from the existing fleet of coal-fired power plants; and 2) None of 
the remaining clean coal projects, other than FutureGen 2.0, will 
address CO<INF>2</INF> storage in saline formations. While utilizing 
CO<INF>2</INF> for Enhanced Oil Recovery significantly improves the 
economic viability of CCS projects and will provide useful information 
for CO<INF>2</INF> in geologic formations, the data obtained is not 
always directly applicable to storage in the vast saline aquifer 
formations that exist in the U.S.
    Question 7b. In February 2010, the President asked a federal task 
force led by DOE and EPA to propose a plan to overcome the barriers to 
the widespread, cost-effective deployment of carbon capture and storage 
within 10 years, with a goal of bringing five to 10 commercial 
demonstration projects online by 2016. Last August the task force 
issued its report. Where do we stand on that ``plan,'' and what are the 
prospects for achieving that goal?
    Answer. The DOE plans to meet the goal of having at least five 
demonstration projects operational by 2016. Of the seven projects 
included in the Clean Coal Power Initiative (CCPI) and Industrial 
Carbon Capture and Storage (ICCS) programs, five are on track to be in 
operation by 2016. Three of those projects are already undergoing 
construction including Southern Company's IGCC project, ADM's Biofuels 
project, and Air Products' steam-methane reformer project. Also awarded 
under the ARRA-funded ICCS program, RTI and Tampa Electric plan to 
commence a large scale demonstration of CCS in a saline aquifer before 
2016. In addition, several large-scale injection projects planned 
through the Regional Carbon Sequestration Partnerships will be 
operational by 2016.
    Question 7c. The odds of getting five to 10 commercial scale 
demonstration projects online by 2016 seem low. Is this still an 
Administration goal, as far as you know? If yes, please describe your 
vision and strategy for getting the CCS activities back on track toward 
achieving that goal.
    Answer. The goal of having five to ten commercial-scale 
demonstration projects in operation by 2016 remains the goal of the 
Administration and is a high priority within the DOE. The DOE is 
working diligently to manage the regulatory processes, design, 
construction, and implementation of its portfolio of projects to offer 
the highest probability that the Administration's goals will be 
achieved. As stated above, the DOE is currently on track to have at 
least five such projects in operation by 2016.

                        RESEARCH AND DEVELOPMENT

    Question 8. Do you have thoughts on soliciting and getting the 
successful proposals such as the RPSEA program to receive funding in a 
way for them to build upon their successes? What are the plans for 
reinforcing this model and possibly applying it toward other technical 
challenges within your purview? Do you plan to request an extension of 
this successful program which expires in 2014?
    Answer. Within the research portfolio administered by the Research 
Partnership to Secure Energy for America (RPSEA), every opportunity for 
selected technologies to be fully evaluated is sought. Requests for 
Proposals with emphasis on technologies that address environmental 
sustainability and enhanced safety are issued by RPSEA under the 
guidance of the Office of Fossil Energy consistent with the research 
program called for pursuant to the Energy Policy Act of 2005, Title IX, 
Subtitle J also referred to as ``Section 999''.
    The Section 999 program has a sunset date of September 2014. 
Current and future research efforts by the Office of Fossil Energy 
related to this program focus on environmental sustainability and 
enhanced safety, including risk assessment and mitigation. Going 
forward, the Office of Fossil Energy will continually evaluate the 
research portfolio and match it against outstanding R&D needs.

                      UNCONVENTIONAL FOSSIL FUELS

    We routinely hear claims that America is running out of oil and 
other natural resources, but a report from CRS that Senator Inhofe and 
I requested tells a much different story. According to it, we have 
tremendous unconventional resources: an estimated 100 billion barrels 
of heavy oil, at least 800 billion barrels of oil shale, and perhaps as 
much as 320,000 trillion cubic feet of methane hydrates.
    Question 9a. Do you think it's important that the United States try 
to commercialize those resources?
    Answer. I agree that heavy oil, oil shale, and methane hydrate are 
very significant domestic resources. Tied to these hydrocarbon 
resources are energy security, economic development, and environmental 
sustainability considerations. As we move towards a clean energy 
future, these resources may play a critical role in the transition. The 
U.S. will continue to use petroleum products, primarily for 
transportation, for some time and the majority of these refined 
products are imported. Natural gas, primarily methane, is integral to 
the development of renewable energy resources; methane hydrate, if it 
can be developed into a reliable supply source can add tremendously to 
our energy portfolio--domestically and globally.
    Question 9b. As Assistant Secretary, what will you do, 
specifically, to promote the development of heavy oil, oil shale, and 
methane hydrates? What will you say to administration officials who 
strongly oppose and seek to block their development?
    Answer. Within the Office of Fossil Energy, we are conducting 
research focused on all three of these resources and view our research 
as necessary underpinnings for their future development. During FY 
2011, we've coordinated with the Office of Science and are planning to 
move forward this coming field season on the next phase of a methane 
hydrate test in Alaska--a field test designed to evaluate a carbon 
dioxide/methane exchange concept.
    Domestic oil production is an important part of our overall 
strategy for energy security, but it must be done responsibly for the 
safety of our workers and our environment. Domestic production can also 
play a role in helping to achieve the President's goal of reducing our 
oil imports by one-third in a decade.
   Response of Charles D. McConnell to Question from Senator Barrasso
    Rocky Mountain Oilfield Testing Center (RMOTC) in Wyoming provides 
small businesses and inventors excellent facilities to test and develop 
new technologies. Last year the Administration required the facility to 
operate as a user facility without providing the roadmap or tools to 
implement that requirement.
    RMOTC has testing potential for a number of different applications, 
ranging from geothermal to carbon sequestration to oil and natural gas 
to environmental safety. Without a strategic plan in place, the 
Department risks wasting this valuable asset.
    Question 1a. What is your plan for RMOTC over the next two years?
    Answer. RMOTC testing activities in FY 2011 and FY 2012 will be 
comprised of projects that are funded through 100 percent fully 
reimbursable (funds-in) arrangements or fully funded by the Office of 
Energy Efficiency and Renewable Energy's (EERE) Geothermal Technology 
Program to validate co-produced and low-temperature geothermal 
technologies. Some technology development companies will pay to test 
their technologies at RMOTC while other inventors and technology 
developers may strike strategic partnerships with end-users to fund 
their testing at RMOTC. RMOTC will continue its collaboration with EERE 
to provide a testing center in support of the Low-Temperature and Co-
Produced Geothermal activities.
    Question 1b. What is the Department's plan for supporting the 
testing mission while RMOTC transitions to a self-sustaining facility?
    Answer. The Department's plans for RMOTC include the preparation of 
a disposition plan for the facility. This plan for disposition will 
include analyzing a potential transfer to the Department of the 
Interior, transfer to an academic institution or other organization 
that will maintain the RMOTC testing facility, and working with GSA for 
possible sale or other disposition. Transferring the technology testing 
portion of RMOTC to new ownership may provide the best opportunity to 
be self-sustaining. While the disposition plan is prepared and 
implemented over the next several years, the Department plans on 
continuing to make the facility available for developers to conduct 
testing through 100 percent fully reimbursable (funds-in) arrangements, 
continuing production operations at NPR-3 as long as it remains 
economic to do so, and continuing with environmental remediation of 
those facilities that are no longer of value to NPR-3 production 
operations, RMOTC testing operations, or the prospective new ownership.

    Response of Charles D. McConnell to Question from Senator Hoeven

    The model developed under Section 999 of the Energy Policy Act of 
2005 has been used to create an industry-directed public/private/
academia partnership focused on research and development to address the 
safety, environmental and technical challenges associated with the 
development of important new domestic energy resources. This is the 
only federal program that currently addresses the safety, environmental 
and technical challenges of the ultra-deepwater.
    Yet in the wake of the DeepWater Horizon, DOE has slowed the review 
and approval process for the program, potentially delaying important 
federal investment in vital R&D to avoid similar incidents in the 
future.
    Question 1a. Can you please speak to how you will ensure timely 
review and approval of plans and programs under your management--
including the 999 program--should you be confirmed?
    Answer. The Deepwater Horizon Disaster and the growing public 
concern with shale gas development continue to be significant drivers 
for the Department's research program. DOE has refocused these research 
programs on risk assessment and mitigation, enhanced safety, and 
environmental sustainability. This focus has been presented to myriad 
stakeholders and has been widely accepted as warranting Federal 
investment.
    In order to best address the research needs concerning offshore 
development and hydraulic fracturing of shale wells, planning and 
review processes have been deliberate during FY 2011. The Secretary has 
asked both the Ultra-Deepwater Advisory Committee and the Natural Gas 
Subcommittee of the Secretary of Energy Advisory Board (SEAB) to review 
and submit their recommendations on this new emphasis. The SEAB 
delivered its Shale Gas Production 90-day report to the Secretary on 
August 18, 2011.
    Given this clear vision, planning and key document review 
milestones have been established, and professional staff in both the 
Office of Oil and Natural Gas and at the National Energy Technology 
Laboratory will be attentive to work products and schedules so that 
actions are completed in a timely manner.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                             Congress of the United States,
                                     Washington, DC, July 20, 2011.
Hon. Barbara Boxer,
Chair, Senate Environment and Public Works Committee, SD-410, 
        Washington, DC.
Hon. Jeff Bingaman,
Chair, Senate Energy and Natural Resources Committee, SD-304, 
        Washington, DC.
Hon. James Inhofe,
Ranking Member, Senate Environment and Public Works Committee, 5D-410, 
        Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Senate Energy and Natural Resources Committee, SD-304 
        Washington, DC.
    Dear Senators:

    As you consider President Obama' s nomination of Ms. Rebecca Wodder 
as Assistant Secretary for Fish, Wildlife and Parks at the Department 
of the Interior, we respectfully write to let you know of our serious 
concerns with her record as the head of American Rivers, a single-
purpose interest group focused on litigating against the federal 
government and removing economically important infrastructure. We 
seriously question whether she could adequately represent broader and 
more balanced interests at the federal level, especially at a fragile 
economic time with national unemployment exceeding nine percent.
    The position for which Ms. Wodder has been nominated oversees the 
management of at least 180 million federal acres and would have a 
direct influence on current and potential federal regulations impacting 
private lands, water rights, energy projects and other infrastructure. 
This is troubling given her past activities at the Wilderness Society 
and American Rivers, a non-governmental organization with a long record 
of receiving American taxpayer dollars while actively litigating 
against the federal government on multiple fronts. Between 1988 and 
2011, American Rivers has either sued or been a party to 150 lawsuits 
against various parties, mostly the federal government. In fact, 
American Rivers is currently party to seven lawsuits against American 
taxpayers and the federal government.
    One illuminating piece of litigation revolves around American 
Rivers' longstanding lawsuit against the federal government's operation 
of four multi-purpose dams in the Pacific Northwest. These dams, 
located on the lower Snake River in Washington state, provide multiple 
benefits including emissions-free, renewable hydroelectricity (enough 
power to serve a city the size of Seattle), navigation to deliver 
agricultural products to market, recreation and the good-paying jobs 
associated with these benefits. Writing in the August 25, 2003 edition 
of The Dissident Voice, Ms. Wodder wrote that ``Breaching the four dams 
on the lower Snake River would be the single most effective way to 
bring back wild salmon.'' This is a completely unproven statement and 
the reality is breaching these darns is an extreme action that would 
have devastating economic impacts across an entire region while not 
actually assisting fish recovery. Despite broad agreement, including 
from the Obama Administration, on a biological opinion for Columbia 
Basin salmon recovery, Ms. Wodder's organization continues an over 
decade long lawsuit campaign against the federal government in an 
effort to demolish these dams.
    There are numerous examples of how the policies advocated by Ms. 
Wodder at American Rivers will have serious impacts throughout the 
country. First, she effectively advocated for federal regulations that 
caused up to 40 percent unemployment in parts of the San Joaquin 
Valley, California by diverting farm water under the guise of 
protecting the Delta smelt, a three-inch fish. Second, she endorsed 
last Congress' controversial legislation (H.R. 5088 and S. 787) that 
many argued could allow the EPA to regulate street and gutter water 
run-off and man-made ditches. This could cause significant job loss 
throughout rural America and the National Association of Counties, a 
non-partisan entity composed of locally elected officials, was 
concerned that this legislation could lead to ``more court cases'' and 
federal groundwater regulation. Third, by naming the Susquehanna River 
as one of ``America's most endangered rivers,'' her organization 
attempted to stifle the domestic production of affordable natural gas 
through hydraulic fracturing.
    Furthermore, we are also concerned that this appointment may run 
afoul of President Obama's own goal of ensuring that political 
appointees would not work on regulations or contracts directly and 
substantially related to their prior employer. Ms. Wodder has received 
significant, long-term compensation during her tenure at American 
Rivers. As previously noted, the organization currently has numerous 
pending lawsuits against the very agencies over which she would have 
regulatory authority and for others that directly or indirectly have 
been involved in litigation with the Interior Department. This creates 
a very real and serious conflict of interest.
    As Members of the House of Representatives, we appreciate the 
unique role of the Senate in the confirmation process. Nonetheless, the 
policies advocated by this nominee would be so detrimental to jobs, our 
economy and the livelihood of rural Americans that we felt compelled to 
make our views known and ask that you take them into consideration.
            Sincerely,
                    Doc Hastings, Member of Congress; Raul Labrador, 
                            Member of Congress; Cathy McMorris Rodgers, 
                            Member of Congress; Chip Cravaack, Member 
                            of Congress; Dan Benishek, Member of 
                            Congress; Glenn Thompson, Member of 
                            Congress; Jeff Landry, Member of Congress; 
                            John Fleming, Member of Congress; Blaine 
                            Luetkemeyer, Member of Congress; Bob Gibbs, 
                            Member of Congress; Denny Rehberg, Member 
                            of Congress; Louie Gohmert, Member of 
                            Congress; Sam Graves, Member of Congress; 
                            Tom McClintock, Member of Congress; Devin 
                            Nunes, Member of Congress; Doug Lamborn, 
                            Member of Congress; Jeff Flake, Member of 
                            Congress; Kristi Noem, Member of Congress; 
                            Rob Bishop, Member of Congress; Jason 
                            Chaffetz, Member of Congress; Don Young, 
                            Member of Congress; Bill Johnson, Member of 
                            Congress; Stevan Pearce, Member of 
                            Congress; Scott Tipton, Member of Congress; 
                            Ben Quayle, Member of Congress; Cynthia 
                            Lummis, Member of Congress; Paul Gosar, 
                            Member of Congress; Bill Flores, Member of 
                            Congress; Mike Coffman, Member of Congress; 
                            Cory Gardner, Member of Congress; Ken 
                            Calvert, Member of Congress; Trent Franks, 
                            Member of Congress; Wally Herger, Member of 
                            Congress; Howard P. ``Buck'' McKeon, Member 
                            of Congress; Paul Broun, Member of 
                            Congress; Vicky Hartzler, Member of 
                            Congress; Jo Ann Emerson, Member of 
                            Congress; Jeff Denham, Member of Congress; 
                            Steve Southerland, II, Member of Congress.
                                 ______
                                 
                                                     July 25, 2011.

Hon. Jeff Bingaman,
Chairman of the U.S. Senate Energy and Natural Resources Committee, 703 
        Hart Senate Office Building, U.S. Senate, Washington, DC.
    Dear Mr. Chairman:

    I want to endorse the nomination of Rebecca Woddcr as Assistant 
Secretary of Interior for Fish and Wildlife and National Parks. I have 
known Rebecca Wodder since my time as Interior Secretary and find her 
to be competent, fair and diligent. While I may have disagreed with 
sonic policy positions she backed during her tenure at the helm of 
American Rivers, I respect her desire to find solutions to difficult 
problems. In tile West, dealing with water scarcity and water 
allocation may be the most difficult problem of all. Wodder's work in 
Washington State to help find consensus between conservation interests 
and water users in the Yakima Basin has shown her to be talented 
leader. The Interior Department will benefit from Rebecca Wodder's 
experience bringing opposing interests together and forging important 
compromises among difficult constituencies.
            Sincerely,
                                           Cecil D. Andrus,
                           Governor of Idaho, 1971-1977, 1987-1995,
                         U.S. Secretary of the Interior, 1977-1981.
                                 ______
                                 
            Association of State Floodplain Managers, Inc.,
                                        Madison, WI, July 17, 2011.
Senate Committee on Environment and Public Works,
Senate Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
RE: Nomination of Rebecca Wodder to be Assistant Secretary for Fish, 
Wildlife and Parks for the Department of the Interior

    Dear Senators,

    We are writing to convey our support for confirmation of Rebecca 
Wodder to be Assistant Secretary for Fish, Wildlife and Parks for the 
Department of the Interior. ASFPM's 14,000 members are the federal 
government's partners in efforts to identify and reduce the risk of 
loss of life and property in floods. Ms. Wodder has demonstrated her 
commitment to this effort, and will bring a diverse and valuable 
background to her new role in the Department of the Interior. In 
addition to her clear commitment to reducing the nation's vulnerability 
to flooding, Ms. Wodder brings critical skills and expertise in the 
natural resources and functions of floodplains. Importantly, her 
background in public engagement and commitment to transparent and 
inclusive public processes will also serve her well.
    Please feel free to contact me with any questions about our support 
for Ms. Wodder's confirmation, or any time we can be of assistance.
            Sincerely,
                                   Larry Larson, P.E., CFM.
                                 ______
                                 
                                                Brookfield,
                                    Marlborough, MA, July 21, 2011.
Hon. Jeff Bingaman,
U.S. Senate, 703 Hart Senate Office Bldg., Washington, DC.
    Dear Chairman Bingaman:

    In June, President Obama nominated Rebecca Wodder, former president 
and chief executive officer of American Rivers, for the position of 
Assistant Secretary for Fish, Wildlife and Parks for the Department of 
the Interior. This is a position for which Ms. Wodder will need 
confirmation from the Energy and Natural Resources Committee. 
Brookfield supports Ms. Wodder's nomination.
    Brookfield Renewable Power Inc., wholly-owned by Brookfield Asset 
Management Inc., has more than 100 years of experience as an owner, 
operator and developer of hydroelectric power facilities. Its total 
portfolio includes more than 170 generating facilities with over 4,300 
megawatts of capacity. It also has a significant hydroelectric and wind 
project pipeline. Brookfield Renewable Power's operations are primarily 
located in North America and Brazil. Brookfield Asset Management Inc., 
focused on property, power and infrastructure assets, has over US$150 
billion of assets under management and is listed on the New York and 
Toronto Stock Exchanges under the symbols BAM and BAM.A, respectively, 
and on Euronext Amsterdam under the symbol BAMA. For more information, 
please visit Brookfield Renewable Power's website at 
www.brookfieldpower.com and Brookfield Asset Management's website at 
www.brookfield.com.
    Of Brookfield's 101 hydropower facilities in the United States, 42 
are certified by the Low Impact Hydropower Institute (LIHI). For more 
information on LIHI's certification criteria, please visit 
www.lowimpacthydro.org.
    Through our work with LIHI, advocating for the use of LIHI 
certification for hydropower's inclusion in state and national 
renewable standards, multiple re-licensing efforts for our hydropower 
facilities, and other projects where we have a shared interest, 
Brookfield has developed a positive working relationship with American 
Rivers under the leadership of Ms. Wodder. We have found American 
Rivers to be a dedicated advocate for environmental issues but one that 
is reasonable. While supporting its positions, American Rivers is 
driven by scientific data and the common good which allows them the 
flexibility to compromise when an agreement with multiple stakeholders 
can be reached.
    Brookfield supports the nomination of Ms. Wodder and encourages the 
Committee to hold a hearing on her nomination as soon as possible.
            Sincerely,
                                              Daniel Whyte,
                                                    Vice President.
                                 ______
                                 
           National Rural Electric Cooperative Association,
                                      Arlington, VA, July 25, 2011.
Hon. Jeff Bingaman,
Chairman, Committee on Energy & Natural Resources, 304 Dirksen Senate 
        Office Building, U.S. Senate, Washington, DC.
Hon. Lisa Murkowski,
Ranking Member, Committee on Energy & Natural Resources, 304 Dirksen 
        Senate Office Building, U.S. Senate, Washington, DC.
    Dear Senators:

    On behalf of America's electric cooperatives, I am writing today 
opposing the nomination of Rebecca Wodder for Assistant Secretary for 
Fish, Wildlife and Parks.
    The National Rural Electric Cooperative Association (NRECA) 
represents more than 900 not-for-profit electric cooperatives providing 
retail electric service to more than 42 million consumers in 47 states. 
Millions of electric cooperative consumers rely on the affordable, 
renewable hydropower marketed by the federal Power Marketing 
Administrations (PMAs). The PMA hydropower projects serve multiple 
purposes that help drive the economies of many states. As Assistant 
Secretary for Fish, Wildlife and Parks, Ms. Wodder would have great 
influence over the positions taken by the Department of the Interior, 
which has broad jurisdiction over many areas impacting dam operations.
    Because of the importance of the Power Marketing Administrations to 
our economy, we are strongly opposed to the nomination of Ms. Wodder. 
Since 1995, Ms. Wodder has served as President of American Rivers, an 
organization that has made dam removal a central part of its mission. 
During her tenure, she led efforts to remove the Lower Snake River 
darns in the Pacific Northwest and opposed the Obama Administration's 
Biological Opinion for salmon recovery in the Columbia and Snake 
Rivers. Given her long tenure at an organization with a strong bias for 
dam removal, her objectivity on issues affecting federal hydropower 
facilities is questionable.
    NRECA has long opposed misguided efforts to dismantle our federal 
hydropower resource. Unfortunately, Ms. Wodder has spent her 
professional career attempting to eliminate this reliable, affordable, 
renewable resource from our energy portfolio.
    Accordingly, we urge you to oppose the nomination of Ms. Wodder for 
Assistant Secretary for Fish, Wildlife and Parks. Thank you for your 
consideration.
            Sincerely,
                                             Glenn English,
                                           Chief Executive Officer.
                                 ______
                                 
                                   The Heartland Institute,
                                     Washington, DC, July 19, 2011.
    Dear Member:

     My name is Eli Lehrer and I am a Vice President of the Heartland 
Institute for Washington, D.C. Operations. The Heartland Institute is a 
national free-market think tank devoted to free markets, limited 
government, and sensible regulatory policy. I am writing to you in 
support of the nomination of Rebecca Wodder as the Assistant Secretary 
of Interior for Fish, Wildlife and Parks. Prior to assuming my current 
position, I served as a speechwriter to Senate Majority Leader Bill 
Frist, a magazine editor at The American Enterprise Institute, and 
fellow at the Heritage Foundation. The comments that follow are my 
personal opinions and do not necessarily represent the opinions of The 
Heartland Institute, its trustees, or its other staff members.
    I first became familiar with Ms. Wodder's organization in the 
context of the debate over The National Flood Insurance Program and 
proposals to engineer a partial federal takeover of windstorm insurance 
markets insurance. In the context of this debate, American Rivers 
partnered with organizations including my own employer, Americans for 
Tax Reform, Americans for Prosperity to oppose proposals that would 
expand the size and scope of government while damaging the natural 
environment. At all times, I found American Rivers' staff willing to 
work with right-of-center organizations like my own, open to new ideas, 
and supportive of many free market values.
    In the context of my knowledge of Ms. Wodder's organization, I 
would also like to address the criticism that American Rivers has 
received from some members of the Congress for its opposition to a 
larger flood insurance program, more spending by Army Corps of 
Engineers and its support for efforts to decommission environmentally 
destructive, dangerous, poorly maintained dams. Although it is neither 
possible nor desirable to remove all structural means of water control, 
I see no reason why those who claim to favor smaller government should 
support government spending on dubious ``economic development'' 
priorities that have the invariable side effect of damaging scenic 
historic, and useful rivers. Certainly, reasonable people can differ on 
the wisdom of removing any given dam or carrying out any major 
hydrological project. But those who support smaller, less intrusive 
government should cheer any organization calling for less government 
spending and a smaller government footprint in the natural environment. 
On the issue of water subsidies, I again see much that conservatives 
should like in the positions that American Rivers has taken. Like Ms. 
Wodder's group, I am opposed to government subsidies for the commercial 
use of water for agricultural or other uses. Quite simply, Ms. Wodder's 
views on a large number of issues are, in my judgment, exactly those 
that conservatives concerned about our natural environment should 
endorse.
    I should also add that I am impressed with the way that American 
Rivers, unlike some other environmental groups, has realized that 
conservation of the natural environment is important insofar as it 
benefits human beings. It is a mass membership organization with 
enormous numbers outdoors enthusiasts amongst its membership and I 
believe that, if confirmed to the position for which she was nominated, 
she will work to make America's open spaces and scenic waterways 
available and accessible to hunters, anglers, paddlers and other 
outdoor recreation enthusiasts.
    Let me close on a final note: like most conservatives, I have a 
number of policy differences with Ms. Wodder. In particular, I strongly 
disagree with positions she has expressed about the appropriate 
response to climate change and with the climate-change related 
legislation that American Rivers has supported. Her opinions, however, 
are consistent with the opinions expressed by the President himself 
and, to my knowledge, every other person he has appointed to a similar 
position in his administration. While I disagree with them, I do not 
believe they should disqualify her. In short, while my core beliefs are 
different from Ms. Wodders' I believe that she deserves to be 
confirmed.
            Yours truly,
                                                Eli Lehrer,
                                                    Vice President.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
